<html>
<title> - IRANIAN TERROR OPERATIONS ON AMERICAN SOIL</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                     IRANIAN TERROR OPERATIONS ON 
                             AMERICAN SOIL 

=======================================================================

                             JOINT HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT,
                     INVESTIGATIONS, AND MANAGEMENT

                                and the

                    SUBCOMMITTEE ON COUNTERTERRORISM
                            AND INTELLIGENCE

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 26, 2011

                               __________

                           Serial No. 112-54

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________

                         U.S. GOVERNMENT PRINTING OFFICE 

73-741 PDF                       WASHINGTON : 2012 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




























                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Kathleen C. Hochul, New York
Billy Long, Missouri                 Janice Hahn, California
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Robert L. Turner, New York
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
       SUBCOMMITTEE ON OVERSIGHT, INVESTIGATIONS, AND MANAGEMENT

                   Michael T. McCaul, Texas, Chairman
Gus M. Bilirakis, Florida            William R. Keating, Massachusetts
Billy Long, Missouri, Vice Chair     Yvette D. Clarke, New York
Jeff Duncan, South Carolina          Danny K. Davis, Illinois
Tom Marino, Pennsylvania             Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                  Dr. R. Nick Palarino, Staff Director
                   Diana Bergwin, Subcommittee Clerk
              Tamla Scott, Minority Subcommittee Director

                                 ------                                

           SUBCOMMITTEE ON COUNTERTERRORISM AND INTELLIGENCE

                 Patrick Meehan, Pennsylvania, Chairman
Paul C. Broun, Georgia, Vice Chair   Jackie Speier, California
Chip Cravaack, Minnesota             Loretta Sanchez, California
Joe Walsh, Illinois                  Brian Higgins, New York
Ben Quayle, Arizona                  Kathleen C. Hochul, New York
Scott Rigell, Virginia               Janice Hahn, California
Billy Long, Missouri                 Bennie G. Thompson, Mississippi 
Jeff Duncan, South Carolina              (Ex Officio)
Peter T. King, New York (Ex 
    Officio)
                    Kevin Gundersen, Staff Director
                    Alan Carroll, Subcommittee Clerk
               Hope Goins, Minority Subcommittee Director
            




























                               C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Michael T. McCaul, a Representative in Congress 
  From the State of Texas, and Chairman, Subcommittee on 
  Oversight, Investigations, and Management......................     1
The Honorable William R. Keating, a Representative in Congress 
  From the State of Massachusetts, and Ranking Member, 
  Subcommittee on Oversight, Investigations, and Management......     6
The Honorable Patrick Meehan, a Representative in Congress From 
  the State of Pennsylvania, and Chairman, Subcommittee on 
  Counterterrorism and Intelligence..............................     4
The Honorable Jackie Speier, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Counterterrorism and Intelligence..............................     3
The Honorable Peter T. King, a Representative in Congress From 
  the State of New York, and Chairman, Committee on Homeland 
  Security.......................................................     8
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     9

                               Witnesses

General John M. Keane, United States Army (Retired):
  Oral Statement.................................................    10
  Prepared Statement.............................................    13
Mr. Reuel Marc Gerecht, Senior Fellow, Foundation for Defense of 
  Democracies....................................................    14
Dr. Matthew Levitt, Director, Stein Program On Counterterrorism 
  And Intelligence, The Washington Institute For Near East 
  Policy:
  Oral Statement.................................................    16
  Prepared Statement.............................................    19
Dr. Lawrence J. Korb, Senior Fellow, Center for American Progress 
  Action Fund:
  Oral Statement.................................................    27
  Prepared Statement.............................................    28
Colonel Timothy J. Geraghty, United States Marine Corps 
  (Retired):
  Oral Statement.................................................    31
  Prepared Statement.............................................    34

                             For the Record

The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security:
  Article........................................................    46


               IRANIAN TERROR OPERATIONS ON AMERICAN SOIL

                              ----------                              


                      Wednesday, October 26, 2011

     U.S. House of Representatives,        
      Committee on Homeland Security,      
      Subcommittee on Counterterrorism and 
                          Intelligence, and
        Subcommittee on Subcommittee on Oversight, 
                    Investigations, and Management,
                                            Washington, DC.
    The subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 311, Cannon House Office Building, Hon. Michael T. McCaul 
[Chairman of the Oversight, Investigations, and Management 
subcommittee] presiding.
    Present from the Counterterrorism and Intelligence 
subcommittee: Representatives Meehan, Broun, Speier, Higgins, 
and Hahn.
    Present from the Oversight, Investigations, and Management 
subcommittee: Representatives McCaul, Bilirakis, Duncan, 
Marino, King, Keating, Clarke, Davis, Hochul, and Thompson.
    Also present: Representative Jackson Lee.
    Mr. McCaul. Good morning. Excuse me, good morning. The 
subcommittees will come to order.
    Today, we have a joint subcommittee between the Oversight 
Subcommittee and the Intelligence Subcommittee. We are meeting 
today to hear testimony regarding the ``Iranian Terror 
Operations on American Soil.''
    The Iranian government is a threat to the international 
community, building weapons of mass destruction. It is a threat 
to the Middle East, dominating the region through intimidation 
and support to terrorist organizations. Now, recent reports 
indicate that the Iranian government is a threat to homeland 
security by attempting to assassinate the Saudi ambassador on 
our soil using drug cartels operating on our doorstep.
    Enough is enough. In the past, we, and the international 
community have attempted to use economic sanctions. It is 
obvious these sanctions have not worked. Our message to Iran 
should be simple--continue threatening the National security of 
the United States, and there will be a punitive response.
    Our hearing today examines the threats from the Iranian 
government, the timid U.S. response, and the alternative 
courses of action. In February, the International Atomic Agency 
director agreed that Iranian leaders seemed very determined to 
build a nuclear weapon.
    Additionally, Iran has declared it has successfully 
enriched uranium. Iran's growing arsenal of ballistic missiles 
enhances its power projection, and there are reports Iran is 
adapting one of its ballistic missiles to deliver a nuclear 
warhead.
    The U.S. Department of State considers Iran the world's 
most active state sponsor of terrorism. Since its inception in 
1979, the Islamic state has used terrorism as an integral part 
of its foreign and military policies. It provides funding, 
weapons, training, and sanctuary to numerous terrorist groups, 
most notably those operating in Iraq, Afghanistan, Lebanon, and 
other Middle Eastern countries.
    Iranian-backed political violence has killed more than a 
thousand people in over 200 terror attacks, including the 1983 
suicide bombing of American and French military barracks in 
Beirut, killing 299 people.
    Most recently, the U.S. Department of Justice filed charges 
of conspiracy to commit terrorism against Manssor Arbabsiar, a 
naturalized U.S. citizen who holds an Iranian passport, and 
Gholam Shakuri, who is identified as a member of the Qods 
Force--a special covered unit of Iran's Revolutionary Guard 
Corps (IRGC).
    Shakuri is still at large and thought to be in Iran. But 
charges state that Mr. Manssor, who is living in Corpus Christi 
and, at one point in time, in my district in Austin, Texas, 
attempted to hire the Mexican drug cartel Los Zetas to 
assassinate the Saudi Arabian ambassador in Washington, DC.
    We should be concerned about a nexus between Iran, 
Hezbollah, and the drug cartels. This plot indicates a 
dangerous escalation of the Iranian government's role in the 
sponsorship of terrorism. Remember that World War I started 
because of an assassination of a foreign diplomat.
    The Iranian government has established strong ties to Latin 
America. Presidents Ahmadinejad and Chavez are allies. Iran is 
focused on recruiting Venezuelan youth of Arab origin for use 
as intelligence and militant operatives. Some are brought to 
Iran for training. Sources claim that Hezbollah is involved in 
this operation.
    In addition, Iran Air operates a Tehran-to-Caracas flight 
commonly referred to as Aero-Terror by intelligence officials 
for allegedly transporting terror suspects, uranium shipments, 
IRGC members, and Hezbollah operatives to South America. The 
Venezuelan government shields passenger list from Interpol on 
these flights.
    Obviously, Iran is a rogue state which continues the work 
towards acquiring nuclear weapons, building long-range 
missiles, and supporting terrorism. Actions taken by the 
administration are not working. We do not enforce sanctions 
against Iran's Central Bank. Iran uses this bank to circumvent 
sanctions. Additionally, this bank assists the Iranian Qods 
Force in funneling money to terrorist groups such as Hezbollah 
and Hamas.
    Strict sanctions on the Central Bank of Iran must be 
enforced sooner rather than later. If it turns out that this 
Iranian assassination plot on U.S. soil was sanctioned at the 
highest levels of the Iranian government, then I believe 
military force should not be taken off the table.
    I look forward to the witnesses' testimony. We have a 
distinguished panel here today. I also look forward to see what 
actions the Obama administration will take to demonstrate that 
the Iranian government's actions are simply unacceptable.
    With that, I now recognize the Ranking Member of the 
subcommittee on Counterterrorism and Intelligence, the 
gentlelady from California, Ms. Jackie Speier.
    Ms. Speier. Thank you, Mr. Chairman, and thank you for 
holding this timely hearing on threats to the homeland from 
Iran.
    First, I would like to congratulate the people of Libya for 
ending the reign of Muammar Gaddafi last week. It is now time 
for the Libyan people to begin the long process of rebuilding 
their country and regaining Libya's standing in the 
international community.
    I would also like to commend President Obama on yet another 
major National security victory for helping to assembling the 
coalition that supported the Libyans in deposing this dictator 
all without placing any of our forces in harm's way.
    Those developments in North Africa should hold some 
relevance for today's topic as well, because it stands as yet 
another example that in our increasingly interconnected world, 
brutal regimes cannot continue to suppress their citizens' 
desire for freedom and democracy.
    I want to thank our distinguished witnesses for being here 
with us today to discuss the Iranian threat, which is a 
discussion that has grown in significance following the foiled 
plot to assassinate the Saudi Arabian ambassador to the United 
States by an Iranian-American man allegedly acting on behalf of 
the Islamic Revolutionary Guards Corps--Qods Force.
    But though this plot has refocused the debate on threats to 
our security from Iran, we all know that Iran has been a 
primary security concern for America for a long time. Earlier 
this year, we held a subcommittee hearing on Hezbollah that 
examined the close links between the Iranian government, 
including the Qods Force and Hezbollah, a group responsible for 
devastating attacks against the United States, including deadly 
bombings of U.S. embassy and Marine Corps barracks in Lebanon.
    Iran continues to provide support for Hezbollah and other 
terrorist groups, including Hamas. Through some of these proxy 
groups, Iran has been tied to attacks on U.S. troops in both 
Iraq and Afghanistan, and Iranian-made weapons have caused the 
deaths of many American service members.
    Of course, the recently foiled plot--which was allegedly 
authorized, funded, and planned by members of the Qods Force--
opens up a new dimension to the threat we face from Iran. If 
the version of events laid out by the Justice Department and 
its complaint is true, that this plot was authorized by members 
of the Iranian government, what does it mean for the overall 
threat we face from Iran?
    Given that the target of this plot was not American, how 
does this change our estimation of the Iranians' capabilities, 
and intent to strike the United States? Does the alleged 
attempts to partner with a Mexican drug cartel member indicate 
a greater collusion between Iran and drug-trafficking 
organizations? We still need to learn all the facts in this 
troubling case.
    But one thing is for sure. We need sober, reasoned 
discussion of the foreign policy challenge we face with Iran, 
not the inflammatory sound bites that have been characteristic 
of the debate up until now.
    The heated rhetoric from both sides over the past decade 
brings back memories of the darkest days of the Cold War. 
Before this recent plot was uncovered, the United States and 
Iran have been contemplating a hotline between the two 
countries to provide a direct line for top leaders to 
communicate during a crisis, in the hopes that cooler heads 
would prevail.
    A similar solution was adopted by the United States and the 
Soviet Union during the Cold War. With the arrest earlier this 
month sparking a lot more heated rhetoric, I cannot help but 
think that such a hotline could have helped. We must carefully 
assess the most effective path forward for dealing with Iran.
    America needs to send a message that Iran's leaders must be 
held accountable for their actions. But we cannot take any 
reckless actions which may lead to opening another front in the 
war on terror, which the American people do not want and cannot 
afford. We need to work with our international partners to find 
the right balance in making Iran accountable. As we showed in 
Libya, the best approach is to build a coalition and to avoid 
unilateral actions.
    Though many people have criticized our sanctions of Iran 
for lacking teeth, just last week the Washington Post reported 
that Iran's nuclear program faced major setbacks, in part due 
to poorly-performing equipment and shortages of parts, as 
global sanctions exert a mounting toll.
    Even China has recently slowed oil and energy investments 
in Iran to be more in compliance with the sanctions program, 
greatly angering the Iranians. Working with our partners will 
enhance our sanctions program and increase the pressure on 
Iran, further isolating the regime and providing a path forward 
that does not put our troops at risk.
    I hope today to gain new insights into these and other 
challenges in the hopes we can move forward, building a 
strategy for dealing with Iran that is both effective and 
responsible.
    With that, Mr. Chairman, I yield back.
    Mr. McCaul. I thank the gentlelady.
    The Chairman now recognizes the Chairman of the 
Subcommittee on Counterterrorism and Intelligence, the 
gentleman from Pennsylvania, Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman, and thank you to our 
distinguished panel for your presence here today.
    Since the Iranian-sponsored assassination plot was revealed 
to the public 2 weeks ago, I have been struck by much of the 
commentary in the media that has underplayed the plot, with 
some even suggesting that it would be impossible to pull off, 
and questioning how Iran would ever use Mexican drug cartels 
for a terrorist attack on American soil.
    But I would note that the September 11 attacks, the 9/11 
Commission pointedly stated, and I am holding it up. These were 
their conclusions. Across the Government there were failures of 
imagination, policy, capabilities, and management. The most 
important was a failure of imagination. We do not believe 
leaders understand the gravity of the threat, a failure of 
imagination. Do our leaders completely understand the gravity 
of threat? That is the essence of what we are trying to ask 
today.
    When it comes to the ambition of Iran to develop nuclear 
weapons, an Iran that is willing to engineer terrorist attacks 
on the United States soil, and an Iran that vowed to wipe 
Israel off the map it appears to me that our government risks a 
failure of imagination and may not fully be considering the 
gravity of the Iranian threat. I hope we can analyze that.
    Today's hearings address a critical homeland security 
issue, Iran's terror operations on American soil. In my view, 
this is a game changer and represents crossing of the red line 
by Iran.
    For many members of this committee it is not surprising. 
This committee, in July, held a hearing on Hezbollah and Iran's 
presence in Latin America, and its ramifications to United 
States homeland. Witnesses testified that Iran, both directly 
and through its proxy, Hezbollah, had its tentacles firmly 
entrenched in Venezuela, throughout Latin America, and into 
Mexico.
    One witness even testified that the Hezbollah was sharing 
underground tunnel technology with the drug cartels along the 
Southern Border of the United States, the same technology used 
by another Iran-supported terrorist group, Hamas, along the 
Egyptian Gaza Strip border.
    Those issue are alarming. I think there is a general 
consensus among the witnesses, for many in the intelligence 
community, that although Hezbollah has a presence in the United 
States primarily for fundraising activity, Iran would not 
attack the United States homeland unless provoked by the United 
States or an attack by them on Israel or their nuclear 
facilities, our nuclear facilities.
    Does it now appear that that consensus is wrong? These are 
among the questions I hope the principal purpose of this 
hearing can be. A complaint unsealed in New York on October 11 
has ramifications that are significant for homeland security in 
the United States. The focus since 9/11 has rightly been on al-
Qaeda and affiliated terrorist groups. Debate about Iran's 
intent and capability to strike on American soil has been 
limited to the nuclear issue. That must change, and I hope 
today's hearing is a constructive contribution to the debate.
    While the United States and the international community 
have issued sanctions against Iran in some forms since 1979, it 
is obvious from the assassination attempt that Iran has not 
been deterred. Some have theorized such an attempt might 
actually signal some amount of desperation and dissention 
within Iran, particularly as it relates to the relationship 
between Ahmadinejad and the ruling theocracy. What are the 
implications of that?
    I do believe, regardless, that it is important for the 
United States to get serious, sanction the Iranian Central 
Bank, its oil refinery businesses, its shipping companies, and 
its port operations. While Iran assassinating a foreign 
ambassador in Washington, DC is a significant provocation, it 
is not a plot considered in isolation. Iran is on a path toward 
obtaining a nuclear weapon. We cannot allow that to happen.
    If we cannot deter Iran's actions now--and the thought of 
them with a nuclear weapon is unimaginable--simply taking him 
at his word, President Ahmadinejad would use nuclear weapons to 
literally wipe Israel off the map. It is my belief that we 
should take him at his word and do everything we can as a 
Nation to stop Iran from obtaining a nuclear weapon, ensuring 
both United States and Israeli security.
    The United States and Israel share a common enemy in Iran 
and, in Israel's case, a potential existential threat if Iran 
attains a nuclear weapon. The United States must do everything 
in its power to protect the state of Israel from an Iranian 
attack.
    Let me close my comments by saying I would like to call 
special attention on one of today's witnesses, Retired Marine 
Colonel Tim Geraghty. Colonel Geraghty was the commander of the 
U.S. Multinational Peacekeeping Force in Beirut, Lebanon in 
1983, when a Hezbollah suicide bomber killed 241 servicemen. As 
we all know, this attack was planned, financed, and ordered by 
the Iranian government.
    This past Sunday was the 28th anniversary of the attacks, 
and I know I speak for all Members of Congress when I say we 
have never forgotten their sacrifice. I also want to highlight 
that on this past Sunday there was a remembrance ceremony at 
Arlington National Cemetary in Section 59, where many of 
Colonel Geraghty's fallen Marines rest today in honor.
    In what I believe to be a striking contrast, in 2004 a 
monument was erected in Tehran commemorating the suicide 
bombers that killed our 241 servicemen in that attack. 
Organizers there held a registration drive, seeking martyrdom 
volunteers. While just an anecdote, I think it tells us much of 
an important story about the type of enemy Iran poses to the 
United States.
    With that, Mr. Chairman, I yield back.
    Mr. McCaul. Thank you, gentleman.
    The Chairman now recognizes the Ranking Member of the 
Subcommittee on Oversight, the gentleman from Massachusetts, 
Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman, and I want to thank 
you for conducting this hearing. I would like to also 
acknowledge a former D.A. colleague, Chairman Meehan, and 
Ranking Member Speier.
    I am pleased to be here and have the combined forces of our 
subcommittee to join together to gain a greater insight on the 
Iranian threat. For over 30 years, the relationship between 
Iran and the United States has been tenuous at best.
    Since 1995 the United States has had an embargo with Iran, 
and this may seem like a long time, post-dating the Red Sox, 
you know, version to the playoffs. But also, Iran's sponsorship 
of the terrorist activities against the United States and other 
countries spans those great three decades.
    As I watch our young men and women return from the 
battlefield in Iraq and Afghanistan, bearing both the physical 
and the psychological wounds of war, what angers me the most is 
their allegations of the extensive collaboration between Iran 
and some of our most threatening enemies like the Taliban, 
Afghan warlords, and al-Qaeda themselves.
    For this very reason, our foreign policy with Iran should 
not be a partisan issue. Iran's actions are wrong. As we focus 
on the nuclear ambition, which are incredibly concerning, we 
cannot turn a blind eye to the Revolutionary Guard's own 
ambitions to stretch their tentacles even further across the 
Middle East and perhaps, and I think likely, the Western 
Hemisphere, as well.
    There is no doubt that, following the failed Iranian 
elections in June 2010, the Iranian regime has had its 
legitimacy wounded. Their own paranoia has increased. They have 
called on Islamic extremists in the region to increase their 
violent posture, and yet again have advocated for the 
annihilation of the Jewish state.
    As if this were not enough to worry about, Israel--who is 
our true democratic ally and trusted friend--Iran's nuclear 
ambitions are moving swiftly towards the nuclear reality as the 
world waits with a bit of apprehension.
    Europe, Israel, and United States must undoubtedly prepare 
for a more dangerous Iranian regime in the near term. Yet 
nothing endangers peace more than a refusal to face and accept 
the facts. So an examination of a way forward with Iran makes 
sense.
    While Iran's known and speculated alliances with terrorist 
organizations pose an actual threat to the United States 
homeland is a question that many have tried to answer, what we 
do know is that members of the elite Qods and the Iranian 
Revolutionary Guard Corps were involved in a plot to 
assassinate Saudi Arabia's ambassador of the United States. We 
should ensure that the decision on how to proceed is grounded 
in the best interests of the United States.
    According to the complaint filed by the Department of 
Justice, an Iranian-American working on behalf of an Iran-based 
member of Iran's Qods Force attempted to hire a member of the 
Mexican drug cartel to assassinate the Saudi ambassador to the 
United States. The cartel member, however, turned out to be an 
informant for the U.S. Drug Enforcement Agency, who tipped off 
U.S. officials and helped them build a case against 
perpetrators who were subsequently arrested on September 29 in 
New York.
    Therefore, the focus of this hearing rightfully belongs on 
the Islamic Revolutionary Guard Corps, an organization that has 
been designated as a terrorist organization by the United 
States, and whether the government of Iran or the entire IRGC 
had knowledge of this scheme or not.
    As I alluded to earlier, the evidence exists that the IRGC 
is playing an active role to undermine Iraq by funneling funds 
and arms to the Shiite militia, engaging directly in military 
activity, and gathering intelligence.
    Furthermore, the United States and the European Union both 
agreed that the Qods Force are providing equipment and support 
to help the Syrian regime suppress revolts in Syria. This 
information alone is a cause for concern. Although I believe 
President Obama's dual track of engagement and policy has had a 
profound effect on Iran's capabilities, we must begin to weigh 
other measures and prepare to counter the evolving threat of 
Iran.
    I look forward to this hearing. I look forward to what will 
be discussed and the ideas coming from our witnesses. I thank 
our witnesses for being here today, and look forward to hearing 
their views on how we should counter this threat and exactly 
how far along the threat lies within our borders.
    Again, I want to thank the Chairman, the Ranking Members 
for being here, and I look forward to the testimony.
    Mr. McCaul. I thank the gentleman.
    The Chairman now recognizes Chairman King for an opening 
statement.
    Mr. King. Thank you, Chairman McCaul.
    Let me, at the outset, thank you and Chairman Meehan for 
holding today's hearing. This is a vital issue. I think it is 
very appropriate that the two subcommittees came together to 
hold this hearing.
    Much reference has been made this morning to the recent 
indictment and the allegations regarding the plot against the 
United States by Iran by elements within Iran. I have seen much 
of the evidence, both in this committee and the Intelligence 
Committee, and the totality of the evidence makes it clear that 
this was a real plot. All of the various types of evidence 
confirm how real it was. This to me is, as Chairman Meehan 
said, a game-changer. This takes it to a new level.
    Iran has been an enemy for many years. Some of the 
statements this morning catalogued Iran's actions against the 
United States. But to actually be contemplating what would have 
been an active war against the United States, No. 1, showing a 
foreign ambassador on American soil in our Nation's Capitol. 
But also clear from the statements that were made, there was a 
willingness to kill hundreds of Americans along with that.
    So you have the assassination of a foreign ambassador, you 
have the willingness to kill hundreds of Americans. This is an 
act of war. So I do not think we can just do business as usual 
or even carry on sanctions as usual. I think sanctions have 
been somewhat effective in the past. But because of this red 
line that was crossed, that was jumped across, I believe 
further action is needed to make it clear how strongly we feel 
about this.
    Also not just to send a message for Iran, but also send a 
message to other nations in the region about how seriously we 
feel. I think, for instance, we should expel Iranian officials 
both in New York at the United Nations and also here in 
Washington. Many of them are working as spies.
    In New York, we had a particular experience of people out 
of the Iranian office at the United Nations. The United States 
actually doing reconnaissance on the New York City subway 
system, they were expelled from the country. I believe it is 
fairly very clear a number of representatives of the Qods Force 
who would be involved in Washington and also in New York. So I 
think that is a clear signal, and a clear action should be 
taken now.
    Additionally, I heard Congressman Keating reference the 
Iranian Revolutionary Guard Corps. I do not believe they have 
been designated as a foreign terrorist organization. I think 
the administration, our Government, should make that official 
designation to designate them as a foreign terrorist 
organization.
    Also, as Chairman McCaul said, I think it is essential that 
we begin to enforce sanctions against Iran's Central Bank. 
These would send clear signals. Also I think it is important to 
say that nothing should be taken off the table. Because once we 
take anything off the table, that is only going to embolden 
Iran. It is also going to cause concern among our allies in the 
region and other countries that could be on the fence. So I do 
not think anything should be taken off the table.
    So I look forward to the hearing today. I look forward to 
the witnesses. Let me particularly thank General Keane for 
being here. He is from New York. We have had a number of 
meetings over the years. I know of the particular work he did 
in formulating the surge strategy in Iraq at a time when 
everyone said that policy would not work.
    I remember being at meetings with General Keane in late 
2006, early 2007, and he, if anyone, was the architect of that 
strategy. General Keane, I want to thank him for that today. I 
want to thank all the witnesses for being here.
    With that, I yield back the balance of my time.
    Mr. McCaul. I thank Chairman King.
    The Chair now recognizes the Ranking Member, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    We were recently made aware of an alleged attempt to 
assassinate the Saudi Arabian ambassador to the United States 
in Washington, DC. The U.S. Government has linked this 
assassination attempt to high-ranking Iranian officials in the 
Iranian Revolutionary Guard Qods Force. I commend the work of 
our intelligence and law enforcement communities, and look 
forward to seeing justice served in the case.
    The United States and Iran have a long history. Even before 
uncovering the alleged plot to kill the Saudi ambassador, the 
United States had designated Iran as a terrorist country. 
Reports that Iran is vigorously pursuing nuclear weapons and 
has alleged ties to al-Qaeda are additional reasons why the 
United States should pay close attention to Iranian activities.
    However, recent remarks by some of my Republican 
colleagues, as well as this morning, suggest that the alleged 
assassination attempt represented the crossing of a red line by 
the world's largest state sponsor of terrorism against the 
United States and Israel, and claims that sanctions are not 
working, may be premature, and could inflame an already fragile 
climate.
    Furthermore, the individual currently awaiting trial is 
accused of attempting to enlist a Mexican drug cartel member to 
assassinate the Saudi Arabian ambassador to the United States. 
Although some have made a point to capitalize on the possible 
alliance between Iranians and the Mexican drug cartels, the 
facts indicate otherwise. We must be careful to stick to the 
facts. We must not overstate, nor overreact to the threat we 
currently face from Iran.
    Some have criticized the sanctions we placed on Iran as too 
soft, and have suggested taking actions that would lead us on a 
path to escalation. But Iran is a nation that has already 
isolated itself from the world community. It has long lost even 
more credibility following its latest round of illegitimate 
elections, and the Arab Spring that has swept the Middle East. 
Let us not lend them the legitimacy they need by taking 
reckless actions that would lead now the path to another war.
    I thank the witnesses for being here today, and I look 
forward to their testimony. I yield back.
    Mr. McCaul. Thank you, Ranking Member.
    Let me first say that I recently met with the FBI agents 
and the DEA agents involved in this case. I want to personally 
commend them, congratulate them, the U.S. attorney's offices, 
the intelligence community. This was a true joint operation 
that worked the way it is supposed to work, and I want to just 
personally thank them on the record.
    With that, we have a distinguished panel of witnesses here 
today.
    First, General Jack Keane is a four-star general. He 
completed 37 years in public service in December 2003, 
culminating as acting chief of staff and vice chief of staff of 
the U.S. Army. He also serves as chairman of the Institute for 
the Study of War.
    General Keane, thank you for being here today.
    Next, we have Reuel Marc Gerecht. He is a senior fellow 
with the Foundation for the Defense of Democracies, where he 
focuses on Iran, Afghanistan, and Iraq terrorism and 
intelligence. He previously served as a specialist at the CIA 
at their Directorate of Operations.
    Next, we have Dr. Matt Levitt who founded and is the 
director of the Stein Program on Counterterrorism and 
Intelligence at the Washington Institute for Near East Policy. 
From 2005 to 2007, Dr. Levitt served as deputy assistant 
secretary for Intelligence and Analysis at the Department of 
the Treasury, and then as a State Department counterterrorism 
adviser.
    Dr. Lawrence Korb, a senior fellow at the Center for 
American Progress and a senior adviser to the Center for 
Defense Information. Previously, he was a director of National 
Security Studies at the Council on Foreign Relations. Dr. Korb 
also served as an assistant secretary of Defense for Manpower, 
Reserve Affairs, Installations, and Logistics.
    Finally, we are very, very honored today to have Colonel 
Timothy Geraghty. He entered the Marine Corps in 1959, 
following graduation from Saint Louis University. He commanded 
a reconnaissance company in Vietnam and, while a lieutenant 
colonel, served in a special assignment with the Central 
Intelligence Agency's Special Operations group. He commanded 
the 24th Marine amphibious unit in Beirut in 1983 as part of 
the Multinational Peacekeeping Force. Upon his retirement from 
the Corps, he returned to the CIA to serve in the 
Counterterrorism Center.
    Colonel Geraghty, let me personally thank you for your 
service and the brave actions on that fateful day in 1983 in 
Beirut. I know we will never forget the Marines that died that 
day.
    With that, I will recognize General Keane for his 
testimony.

    STATEMENT OF GENERAL JOHN M. KEANE, UNITED STATES ARMY 
                           (RETIRED)

    General Keane. Thank you, Mr. Chairman and Ranking Minority 
Member, the other Chairs who are present here today, and the 
other Ranking Minority Members. I appreciate you inviting me to 
share my views with you. I got to say this is probably one of 
the most unique testimonies I have provided here, with bringing 
these two committees together and also the number of Chairs and 
Ranking Minority Members that are here. Also, I am also honored 
to be on this panel with the distinguished colleagues that will 
share their views with you, as well.
    The Iranian bungled operation to use proxies to assassinate 
the Saudi Arabian ambassador to the United States, and to 
purposefully plan the operation inside the United States, is a 
stunning rebuke to the Obama administration's policy of 
negotiation and isolation with the Iranians. Indeed, Republican 
and Democratic administrations, since 1980, have failed to deal 
effectively with the harsh reality that Iran is our No. 1 
strategic enemy in the world.
    Frankly, the Iranians stated as much in 1980. That the 
United States was the enemy of the Islamic Revolution, and 
their intent was to drive the United States out of the region. 
Therefore, they have been systematically killing us for over 30 
years.
    As mentioned, in 1983, their proxies, the Hezbollah, blew 
up the American embassy, the Marine barracks in Lebanon, and 
the embassy annex the following year, with a total of almost 
500 lives lost. We not only had no response to this tragedy, 
but we pulled our troops out of Lebanon.
    In 1983, the Iranian-backed Al Dawa extremist groups blew 
up the U.S. embassy in Kuwait and attacked Raytheon's 
residential area, killing and wounding over 80.
    In 1984, the CIA station chief in Lebanon, William Buckley, 
was captured and eventually killed, which was the beginning of 
an Iranian-backed campaign to take high-profile hostages over a 
10-year period. This led to the poorly-conceived and ill-fated 
operation by the Reagan administration to exchange arms for 
hostages with the Iranians.
    In 1985, TWA flight 847 was seized while en route to Rome 
and was forced to land in Beirut, which led to the killing of a 
U.S. Navy diver and dumping his body on the tarmac. Eventually, 
the airplane hostages were released as the Israelis released 
hundreds of extremist terrorists from Israeli jails.
    In 1996, the U.S. Air Force Kobhar Towers barracks in Saudi 
Arabia was blown up by the Iranian-backed Hezbollah, killing 19 
and wounding almost 400. Again, although our intelligence 
identified the culprits as Iranian-backed Hezbollah, we had no 
response. Eventually we shut down the U.S. military bases in 
Saudi Arabia.
    Since 2003, in Iraq, the Iranians have provided rockets, 
mortars, enhanced IEDs, and money to the Shia militia who were 
directly involved in killing U.S. troops in Iraq. Moreover, the 
Iraq Shia militia were trained by the Iranian special 
operations force, the Qods force, assisted by the Hezbollah at 
training bases in Iran.
    While the Iranians were defeated politically and militarily 
in Iraq in 2009, the President's recent decision to withdraw 
all troops from Iraq puts our hard-fought gains in Iraq at risk 
and plays right into the hands of the Iranians. Similarly, the 
Iranians are supporting the Taliban in Afghanistan with money 
and ammunition.
    The action arm for Iran's state sponsorship of terrorism 
outside of their borders is led by General Qassem Soleimani, 
who has been in charge for over 15 years. General Soleimani has 
no military or political boss. He answers to only one person--
the supreme leader in Iran, Khomeini. We must conclude that for 
General Soleimani to plan an operation inside the United States 
that would result in Americans being killed, surely the supreme 
leader, at a minimum, approved the plan and may, in fact, 
direct it.
    Moreover, we must ask ourselves: Has U.S. policy with 
respect to Iran been working? We appear to have a policy of 
rhetorical condemnation when the Iranians engage in behavior 
adverse to the United States interests. We also engage in 
negotiations which are on-again, off-again, while the Iranians 
continue to pursue nuclear weapons. We have imposed some 
limited sanctions on the Iranians and attempt to isolate them 
in the world which, as best as we can tell, also has had no 
impact on their pursuit of nuclear weapons or their sponsorship 
of terrorism.
    We also must admit that the Iranians are not without their 
own challenges. Having two fledgling democracies on their 
borders in Iraq and Afghanistan is a huge geopolitical threat 
to their tyrannical control of their own population and 
preservation of their regime. The Arab Spring is a repudiation 
of radical Islam. Indeed, the people in the streets are seeking 
political reform, social justice, and economic opportunities, 
which are the mainstream of Western democracies.
    Certainly, the Iranians are attempting to take advantage of 
the opportunities the social unrest of the Arab Spring 
provides, but no one has demonstrated on behalf of their flawed 
values. Losing a state-sponsored terrorist like Gaddafi is a 
setback for them, to be sure, as is the upheaval in Syria, 
their No. 1 ally in the region.
    All that said, it is time to review our strategy for Iran 
against the harsh reality that despite our rhetoric, attempts 
to negotiate, isolate, and sanction, the fact is the Iranians 
continue to use their proxies against U.S. interests and 
continue to pursue nuclear weapons. Therefore, one must 
conclude the obvious: That our policy has failed, and failed 
miserably.
    What can we do? First and foremost, begin to treat Iran as 
the strategic enemy they truly are. As such, develop a 
strategic competitive framework that counters every major 
interest the Iranian regime engages in. Yes, of course, seek 
international community support and cooperation. But regardless 
of the amount of support that we are able to obtain, we must 
act.
    As an example, seize the financial assets which are outside 
of Iran, much as we did with the al-Qaeda. Limit their ability 
to trade by denying their ships entry to ports around the 
world. Limit the ability of their central bank to operate 
effectively. Conduct an offensive cyber campaign against 
military and economic interests inside of Iran.
    Conduct covert operations led by the CIA, in cooperation 
with other agencies, to target the Qods Force and their 
proxies. Provide money, information, and encouragement to the 
dissident leaders inside Iran to use their population to put 
pressure on the regime. In my view, these measures have a 
realistic chance to compel a behavior change or, possibly, even 
the regime to fall.
    This much I do know: If we continue the half-measures of 
the past, the Iranians will continue to kill us, will continue 
to sponsor terrorism and use their proxies against our 
interests, and will continue to pursue nuclear weapons. The 
next nightmare the world is awaiting is around the corner, and 
it is an unchecked Iran with nuclear weapons.
    Thank you, and I look forward to your questions.
    [The statement of General Keane follows:]
                  Prepared Statement of John M. Keane
                             26 October 11
    The Iranian bungled operation to use proxies to assassinate the 
Saudi Arabian Ambassador to the United States and to purposefully plan 
the operation inside the United States is a stunning rebuke to the 
Obama administration's policy of negotiation and isolation with the 
Iranians.
    Indeed, Republican and Democratic administrations since 1980 have 
failed to deal effectively with the harsh reality that Iran is our No. 
1 strategic enemy in the world. Frankly, the Iranians stated as much in 
1980, that the United States was the enemy of the Islamic Revolution 
and their intent was to drive the United States out of the region. 
Therefore, they have been systematically killing us for over 30 years.
    In 1983, their proxies the Hezbollah blew up the American Embassy, 
the Marine Barracks in Lebanon and the Embassy Annex the following year 
with a total of almost 500 lives lost. We not only had no response to 
this tragedy but we pulled our troops out of Lebanon. In 1983 the 
Iranian backed Al Dawa extremist groups blew up the U.S. Embassy in 
Kuwait and attacked Raytheon's residential area killing and wounding 
over 80.
    In 1984, the CIA station chief in Lebanon, William Buckley, was 
captured and eventually killed, which was the beginning of an Iranian-
backed campaign to take high-profile hostages over a 10-year period. 
This led to the poorly conceived and ill-fated operation by the Reagan 
administration to exchange arms for hostages with the Iranians. In 1985 
TWA flight 847 was seized while en route to Rome and was forced to land 
in Beirut, which led to the killing of a U.S. Navy diver and dumping 
his body on the tarmac. Eventually the airplane hostages were released 
as the Israelis released hundreds of extremist terrorists from Israeli 
jails.
    In 1996, the U.S. Air Force Kobhar Towers barracks in Saudi Arabia 
was blown up by the Iranian-backed Hezbollah, killing 19 and wounding 
almost 400. Again, although our intelligence identified the culprits as 
Iranian-backed Hezbollah, we had no response and eventually shut down 
the U.S. military bases in Saudi Arabia.
    Since 2003 in Iraq the Iranians have provided rockets, mortars, 
enhanced IED'S and money to the Shia Militia who were directly involved 
in killing U.S. troops in Iraq. Moreover, the Iraq Shia Militia were 
trained by the Iranian special operations force, the Qods force, at 
training bases in Iran. While the Iranians were defeated politically 
and militarily in Iraq in 2009, the President's recent decision to 
withdraw all our troops from Iraq puts our hard-fought gains in Iraq at 
risk and plays into the hands of the Iranians. Similarly, the Iranians 
are supporting the Taliban in Afghanistan with money and ammunition.
    The action arm for Iran's state sponsorship of terrorism outside of 
their borders is led by General Qasim Soliemani, who has been in charge 
for over 15 years. General Soliemani has no military or political boss, 
he answers to only one person, the supreme leader in Iran, Khomeni. We 
must conclude that for General Soliemani to plan an operation inside 
the United States that would result in Americans being killed, surely, 
the supreme leader at a minimum approved the plan and may in fact, 
directed it.
    Moreover we must ask ourselves: Has U.S. policy with respect to 
Iran been working? We appear to have a policy of rhetorical 
condemnation when the Iranians engage in behavior adverse to the U.S. 
interests, we also engage in negotiations, which are on-again/off-
again, while the Iranians continue to pursue nuclear weapons. We have 
imposed some limited sanctions on the Iranians and attempt to isolate 
them in the world which as best as we can tell also has had no impact 
on their pursuit of nuclear weapons or their sponsorship of terrorism.
    We also must admit that the Iranians are not without their own 
challenges. Having two fledgling democracies on their borders in Iraq 
and Afghanistan is a huge geopolitical threat to their tyrannical 
control of their own population and preservation of their regime. The 
Arab Spring is a repudiation of radical Islam; indeed, the people in 
the streets are seeking political reform, social justice, and economic 
opportunities, which are the mainstream of western democracies. 
Certainly the Iranians are attempting to take advantage of the 
opportunities the social unrest of the Arab Spring provides but no one 
is demonstrating on behalf of their flawed values. Losing a state-
sponsored terrorist like Ghadafi is a setback as is the upheaval in 
Syria, their No. 1 ally in the region.
    All that said, it is time to review our strategy for Iran against 
the harsh reality that despite our rhetoric, attempts to negotiate, 
isolate, and sanction, the fact is the Iranians continue to use their 
proxies against U.S. interests and continue to pursue nuclear weapons. 
Therefore, one must conclude the obvious, that our policy has failed, 
and failed miserably.
    What can we do? First and foremost begin to treat Iran as the 
strategic enemy they truly are. And, as such, develop a strategic 
competitive framework that counters every major interest the Iranian 
regime engages in. For example, seize the financial assets which are 
outside of Iran, much as we did with the al-Qaeda, limit their ability 
to trade by denying their ships, entry to ports around the world, limit 
the ability of their central bank to operate effectively, conduct an 
offensive cyber campaign against military and economic interests inside 
of Iran, conduct covert operations led by the CIA in cooperation with 
other agencies to target the Qods force and their proxies. Provide 
money, information and encouragement to the dissident leaders inside 
Iran to use their population to put pressure on the regime.
    In my view, these measures have a realistic chance to compel a 
behavior change or possibly even the regime to fall. This much I do 
know, if we continue the half-measures of the past the Iranians will 
continue to kill us, will continue to sponsor terrorism and use their 
proxies against our interests, and will continue to pursue nuclear 
weapons.
    The next nightmare for the world is around the corner, an unchecked 
Iran with nuclear weapons.
    Thank you and I look forward to your questions.

    Mr. McCaul. Thank you, General, for that excellent 
analysis.
    The Chairman now recognizes Mr. Gerecht for his testimony.

STATEMENT OF REUEL MARC GERECHT, SENIOR FELLOW, FOUNDATION FOR 
                     DEFENSE OF DEMOCRACIES

    Mr. Gerecht. I just want to say it is a pleasure to be 
here, to be invited by the subcommittees. Also, I must always 
say it is a pleasure to sit next to General Keane. If one casts 
one's mind back to the dark days of 2006, there were very few 
individuals in this town on the Republican or Democratic aisle 
or in the Pentagon who believed that Iraq could be turned 
around. General Keane did, and we all owe him a great deal.
    I am going to primarily talk about operations, about how I 
have observed the Iranians over 20 years. To go back a little 
bit in time to when I was an Iranian targets officer in the 
Central Intelligence Agency.
    Now, a great deal of conversation occurred after the plot 
was revealed. Many quarters, many sensible quarters said they 
could not really believe the Iranians were responsible, they 
could not believe that al-Khomeini, who they described as being 
a cautious man, could they have been involved in this. Most 
importantly, they could not believe that the Iranians were 
involved because the operation was so lame that the hiring of 
someone like Mr. Arbabsiar could not have happened because this 
is the A-Team.
    Well let me tell you, the truth is that Iranian operations 
are almost always sloppy. That is the way they have been. Do 
not mix up the notion that an operation that was sloppy cannot 
be lethal. I mean, when this first occurred it reminded me of 
perhaps of my favorite Iranian bombing run, which was in Paris 
in 1986, where the Iranians let loose against the French.
    Probably, we know from commentary later by Iranian 
officials in retaliation of French support of Iraq during the 
Iran-Iraq war, they bombed Paris repeatedly, my favorite, that 
culminated in the most lethal bombing of a place called Tati, 
which was an inexpensive department store on the Rue de Rennes, 
best known for its inexpensive women's underwear.
    The individual who was responsible for that was a Tunisian. 
Now, there were several people who were, but probably the 
guiding light was the Tunisian Muslim who converted to Islam 
and was taken back to Iran and was trained, who had been a 
failed seller of vegetables and fruit in the streets of Paris. 
Yet, the Hezbollah and the Iranians found him to be an ideal 
candidate to bomb Paris. Within less than a fortnight, the DST, 
the French Internal Security Service, had ripped the whole 
thing apart. It was patently obvious the Iranians had done it.
    I tracked Iranian operations all over the place in the 
1980's and 1990's. Many of those operations succeeded. That is, 
they killed individuals. Most of those operations again, it did 
not take you very long to put all the pieces together. Again, 
the Iranians really do not hide all that much. That is the real 
truth.
    I might make a slight digression, and just say all 
intelligence services are not as good as you think they are and 
the Iranians are no exception. They make a lot of mistakes. So 
it is important to remember, when you think about the 
Revolutionary Guard Corps, and the Qods Force, too is, that 
these services largely reflect their domestic ethics.
    Now, the way the IRGC works, the Pasdaran and the 
Revolutionary Guard Corps works inside of Iran, is usually one 
of brute force and coercion. They are not a subtle 
organization. The ethos that you see inside the country is the 
same ethos that you see outside of the country. They do not 
have one body of very sophisticated folks who are the Persian 
version of James Bond working outside of the country, and then 
just the brutes, the thugs, inside. It is the brutes and the 
thugs in both places.
    So do not, for a moment, buy the argument from those who 
said it cannot be because this is too sloppy. This is the 
nature of the game. This is how it is done. You know, cast your 
mind back again to something that obviously hurt us. If you go 
back and you look at al-Qaeda's operations for the millennial 
bombings and their attempt to go after the USS Sullivans in the 
Port of Aden, it is positively comical. Yet, al-Qaeda was able 
to recover in its consistently sloppy way, and they were almost 
able to sink the USS Cole.
    In the intelligence game, in this type of dark arts system, 
the prize goes to those who just do--if you just persist at it. 
What the Iranians do is, they persist. It is important to note 
here that it is better than a 50/50 guess--in fact, it is more 
like a 90/10 guess--that every single Iranian terrorist 
operation since 1989, since the death of Ayatollah Khomeini, 
has been approved by Khomeini.
    He has been a somewhat cautious man, occasionally, inside 
of Iran. I would argue that since the uproar of June 2009 and 
the explosion of the--and its collapse, that actually even that 
analysis is overrated. He has essentially turned a consensual 
theocracy into a dictatorship. He has moved members of the 
Guard Corps like they are musical chairs. He is in control of 
that system.
    Lord help Qassem Soleimani if he engaged in the operation 
to kill Americans in Washington, DC without his approval. I 
guarantee you he will be gone soon. He will most likely be dead 
soon.
    What we need to look at in the future--and I suspect this 
is where the operational aspect of this is going to get 
worrisome--is, what I think the Iranians are going to do--and I 
would say the only reason the Iranians have not hit the United 
States in the past is because they feared an American response. 
They have had very active operations throughout the West, 
except in the United States. The only incidence of that was 
immediately after the revolution, in the assassination of a 
former Iranian diplomat in Bethesda, a fellow by the name of 
Tabatabai.
    Since then, they have not engaged in lethal operations, so 
far as we know, in the United States. I think the reason for 
that is they have been scared. They have been scared of the 
possible outrage coming from the United States. They have been 
scared of American military.
    I would emphasize to you that the reaction in Tehran in 
2001, after the invasion of Afghanistan, and in 2003 after the 
invasion of Iraq, was just dead silence and fear. It went away 
because as Americans started talking about Afghanistan, and 
more importantly, Iraq as a failure, the Iranians said, ``Oh, 
it's a failure.'' Their attitude about what they could do to 
Americans started to change, and they started to push, push, 
push. If they think they can get away with it they will push 
forward, and they did get away with it.
    Now, even though it is very invidious to say this I think 
it is crystal clear that they had the conception that now, 
today, in Washington, DC they could have a terrorist operation 
that could hit the two people that they detest most, the 
Americans and the Saudis, and they could get away with it.
    Now, the only way that I would argue that you are going to 
stop that type of mentality and attitude is that you have to 
convince them that you will escalate. You do not want to run 
away from that word. You want to run towards it. You do not 
want to say to them, ``We don't want to have another front in 
the war on terror.'' Say you are more than willing to have 
another front on the war on terror.
    Mr. McCaul. Mr. Gerecht, this has been really fascinating. 
But I would ask, in the interest of time, if you could wrap 
your statement to give the Members time for question and 
answer. You will have ample time to say some more.
    Mr. Gerecht. I would just end with this. Operationally, 
what I would suggest the committees look at is that they look 
at Canada. I think that is where the Iranians have had much 
more success in developing contacts, networks. I suspect what 
they will try to do is move the type of operations they have in 
Canada, move them south and all in there.
    Mr. McCaul. Thank you for your insightful testimony.
    The Chairman now recognizes Dr. Levitt.

    STATEMENT OF MATTHEW LEVITT, DIRECTOR, STEIN PROGRAM ON 
COUNTERTERRORISM AND INTELLIGENCE, THE WASHINGTON INSTITUTE FOR 
                        NEAR EAST POLICY

    Dr. Levitt. Thank you very much, Chairman, the Ranking 
Members, the distinguished Members of the committee. It is an 
honor and a privilege to testify before you today and to share 
a panel with these distinguished speakers.
    The fact that Iran uses brutal means to achieve its foreign 
policy goals is nothing new. The fact that it decided to carry 
out an attack in Washington, DC, an attack that would have 
killed many more Americans, that they did not appear to have 
any concern about the possibility of killing Senators, this 
really is, indeed, something new.
    There have been past plots in the United States, the one 
that Reuel mentioned and a couple others possible since. I 
include those in my written testimony. Many, many more abroad, 
including the targeting of Saudi diplomats abroad. Of course, 
one major instance in the past, Khobar Towers, where they tried 
to hit U.S. and Saudi interests at once.
    According to the Iran Human Rights Documentation Center, 
Iran has been tied to at least 162 extrajudicial killings 
around the world since 1979. But as several Members have noted, 
questions have been raised about this plot, about its 
unprofessionalism. Could have been a rogue operation? Why would 
Iran decide to carry out an attack like this now?
    I would like to answer some of those questions and, if 
there is time, suggest some things we might be able to do right 
now to be able to give Iran an answer. I agree with Reuel 
wholeheartedly. We have to answer somehow now.
    As to the unprofessionalism, I do not think anybody would 
have said it was unprofessional had the person that they turned 
to--I think that he was member of a cartel--not been a DEA 
undercover. This was, in fact, a spectacular success of U.S. 
law enforcement and intelligence. But had they not gone to that 
individual, this could have been carried out. No one would have 
pooh-poohed it then.
    In fact, going to the Mexican cartel does not necessarily 
suggest a formal nexus between Iran and the cartel. This would 
have been a target of opportunity, perhaps, just as easily. But 
it certainly would have been an effort to seek reasonable 
deniability. That is a hallmark of Qods Force and Hezbollah 
operations both.
    You know, as tensions persisted between the United States 
and Iran in the Gulf in the 1990's, the CIA assessed, in what 
has now been declassified, that Iran would sponsor easily-
deniable attacks against U.S. targets, presumably mostly 
abroad. So by reaching out to someone that they assume to have 
been tied to Mexican drug cartels, using this foolish-looking 
guy, Arbabsiar, as a cut-out, Qods Force planners may have 
thought that they were indeed building for themselves some type 
of reasonable deniability.
    In my written testimony I also cite the case of Fouad Ali 
Saleh, the Tunisian-Sunni convert to Shia Islam who sold 
fruits, vegetables, and clothing, not with great success, in 
the Paris subway as a precedent for the Qods Force using 
individuals just like this.
    Indeed, I would argue that the fact that the Qods Force has 
suffered several recent failures suggests that they may not be 
quite as vaunted as people assume that they have been. Consider 
the foiled plot in Azerbaijan, where two Hezbollah operatives 
were convicted and then released, but two other Qods Force 
members were quickly captured and quietly released. Consider 
reports of the joint Hezbollah Qods Force operation in Turkey, 
again, where Qods Force operatives were quietly released. They 
have had a series of failures. This is not the only one.
    As for a rogue operation, I, too, agree that if the head of 
the Qods Force did something like this without higher 
authorization he is in for some very tough times. In the past--
Khobar Towers, the bombings in Argentina in 1992 and 1994--all 
of these have, in time, been tied not only back to Iran and to 
the Qods Force, but to very high levels of leadership and the 
Iranian national security council both. I will go to that in 
detail in my written testimony.
    The fact is that U.S. intelligence assessed in August 1990 
that Iran had been responsible for sponsoring numerous attacks 
against Saudi interests over that past year, and assessed that 
the Iranian terrorist attacks carried out in 1989-1990 were, 
and I quote--``probably approved in advance by the president 
and other senior Iranian leaders.'' We are likely going to find 
something along those lines here, too.
    Why would they want to carry out attacks now? Well, there 
are all kinds of reasons. The Saudi ambassador reportedly was 
quoted in Wikileaks that came out in the press as saying that 
the Saudi king told U.S. officials that we should be doing 
something against Iran. Tensions between the United States and 
Iran are at least as high now as they were in the 1980s and 
1990s. The revolutionary radical elements within Iran are in 
ascent.
    All the things that were going on then that led to 
increased attacks are going on now. There is, in fact, a shadow 
war going on. If you look at this from Iran's perspective--
Stuxnet virus, Qods Force people defecting, members of the 
nuclear program suddenly disappearing--these are things that 
they blame us and Israel, and every once in a while the Brits, 
too, for doing. All of these maybe had an effect.
    So what should be done? I would argue that especially while 
the court case is on-going we would not want to do something 
that would be prejudicial. I would also argue the fact is that 
the country, Democrats and Republicans alike, does not have a 
whole lot of stomach for a major military intervention now. It 
should not be taken off the table.
    My testimony is what can be done right now, and I will give 
you a few examples. None of these are more than pinpricks, to 
be sure. But if we were to do a bunch of pinpricks right now, 
we could send a message, even before the trial is over, without 
being prejudicial--and I do think we have to do something right 
now.
    I think that we should be working with allies--and the 
Saudis were targeted here, they should carry some of the 
water--to get some of the larger Iranian embassies, especially 
in South America, brought down to size.
    After the AMIA bombings in 1994, members of the U.S. 
Government testified before Congress that this is something 
that they were doing then. Instead, which we have seen is an 
increase in the number of embassies, the size of those 
embassies. We should also be pressing allies to P&G, to kick 
out of the country known and suspected ministry of intelligence 
and security operatives and IRGC operatives. We all have long 
lists of people along those lines.
    I think that we should restrict the movements of Iranian 
diplomats--that is, press our allies to do that, we already 
do--so that they cannot go outside capitol cities. Visiting 
dignitaries cannot do anything more than what they came for. 
Recently, Iranian officials went to Rome for a meeting. They 
were allowed to go to that meeting, nothing else--no press, no 
lectures, no meeting with the Pope, no meeting with Italian 
officials.
    I think that the GCC can be brought in here. Most GCC 
members, for example, do support actions like targeting Bank 
Merkazi, the central bank of Iran. I do think that is something 
that should be done, and the Treasury Department has people in 
Europe pressing that right now as we speak. But let us be 
honest.
    The major issue there is not that our European or Gulf 
allies disagree with us that Bank Merkazi should be designated, 
that it is a viable target, but rather the question of what 
would happen to the international oil economy--and the larger 
world economy, at a time when we, and right now especially the 
Europeans, are facing some serious economic problems--that is 
something that will have to be answered before we get people to 
do that with us.
    Iran sits on all kinds of international bodies. Their 
memberships should be suspended so long as they engage in 
activities that are completely beyond acceptable for 
international norms. There are small types of military 
pressures especially in Iraq. There is a lot that we are doing. 
We could be publicizing some of that. There is more we could be 
doing.
    I would add just one last thing here. Aside from doing more 
sanctions on the Qods Force, and there is a lot more we could 
do there, Chairman King had asked if they were designated as an 
FCO. They have not, but they have been designated by Treasury 
as a specially-designated global terrorist entity.
    One other thing that can be done, and DHS here can play a 
role, is greater customs controls. We do have DHS officers in 
Brussels working closely with FBI and others, doing yeoman's 
work on dealing with Iran's procurement and customs violations.
    There is precedent, within the European Union, for setting 
up a small body that might share information in a timely manner 
focused on one particular issue. After Kosovo, there was an 
effort like this. We could do that on Iran and highlight Iran's 
customs violations. That would help both on proliferation and 
then argue terrorism as well.
    There is a lot more detail in my written testimony. I will 
leave that for that, and thank you for the opportunity.
    [The statement of Dr. Levitt follows:]
                  Prepared Statement of Matthew Levitt
                            October 26, 2011
    U.S. Attorney General Eric Holder's announcement on Oct. 11 that a 
dual U.S.-Iranian citizen and a commander in Iran's Qods Force, the 
special-operations unit of the Islamic Revolutionary Guard Corps 
(IRGC), had been charged in New York for their alleged roles in a plot 
to murder the Saudi ambassador to the United States, Adel al-Jubeir, 
represents a brazen escalation in Iran's struggle for regional 
dominance. But Iran's willingness to use brutal means to achieve its 
foreign policy goals is nothing new: Since the creation of the Islamic 
Republic, U.S. intelligence agencies have repeatedly identified 
terrorism as one of the regime's signature calling cards.
    The plot developed quickly over just a few months, starting this 
spring and culminating with the arrest of Manssor Arbabsiar, the 
Iranian-American man, in September. According to a Justice Department 
news release, Arbabsiar told a Drug Enforcement Administration 
confidential source (CS-1) posing as an associate of an international 
drug cartel that ``his associates in Iran had discussed a number of 
violent missions for CS-1 and his associates to perform, including the 
murder of the Ambassador.'' Later, after Arbabsiar was arrested and had 
confessed to his role in the plots, he reportedly called Gholam 
Shakuri, the member of the Qods Force who was also indicted, at the 
direction of law enforcement. Shakuri again confirmed that the plot 
should go forward and as soon as possible. ``Just do it quickly. It's 
late,'' he said.
    The timing of this plot suggests that Iran feels itself under 
increasing pressure, both from the international community (led by the 
United States) and from the regional alliance of Sunni states in the 
region (led by Saudi Arabia). Intriguingly, the plot seems to have been 
launched shortly after the Saudi-led military intervention in Bahrain 
against Shiite protesters to which Iran objected loudly but was unable 
to affect. According to press reports, a Saudi official alleged that 
Gholam Shakuri was ``an important Qods Force case officer who had 
helped organize militant Shiite protesters in Bahrain.'' According to 
this Saudi official, ``Shakuri was among the Iranians who met Hasan 
Mushaima, a radical Bahraini Shiite cleric, during a stopover in Beirut 
last February, when Mushaima was on his way back home to lead protests 
in Bahrain.''\1\
---------------------------------------------------------------------------
    \1\ David Ignatius, ``Intelligence Links Iran to Saudi Diplomat's 
Murder,'' Washington Post's Post Partisan Blog, October 13, 2011, 
http://www.washingtonpost.com/blogs/post-partisan/post/intelligence-
links-iran-to-saudi-diplomats-murder/2011/10/13/gIQAFzCPiL_blog.html.
---------------------------------------------------------------------------
                               past plots
    The fact that Iran plotted attacks in the United States is 
surprising, and not only because Iranian agents have traditionally 
carried out such attacks in Europe, South America, or the Middle East. 
But the fact that Iranian agents engage in assassination plots abroad 
is not itself news. Recall, for example, the assassinations of General 
Gholam Ali Oveissi in Paris in February 1984; Amir Parviz, Ali 
Tavakoli, and Nader Tavakoli in London in July 1987; Dr. Abdolrahman 
Ghassemlou, Abdollah Ghaeri-Azar, and Fazil Rassoul in Vienna in July 
1989; Kazem Radjavi in Switzerland in April 1990; and Sadegh 
Sharafkandi and three of his colleagues at the Mykonos restaurant in 
Berlin in September 1992. According to the Iran Human Rights 
Documentation Center, Iran has been tied to at least 162 extrajudicial 
killings around the world since 1979.\2\
---------------------------------------------------------------------------
    \2\ ``No Safe Haven, Iran's Global Assassination Campaign'', Iran 
Human Rights Documentation Center, Appendix 1 ``Chronological List of 
those Killed during the Islamic Republic of Iran's Global Assassination 
Campaign'', May 2008, http://www.iranhrdc.org/english/publications/
reports/3152-no-safe-haven-iran-s-global-assassination-campaign.html.
---------------------------------------------------------------------------
    Indeed, some of these occurred in the United States. In 1980, Dawud 
Salahuddin, an American convert to Islam, was recruited by the then 
newly-formed Islamic Republic of Iran to assassinate Ali Akbar 
Tabatabai, a former press attache at the Iranian Embassy in Washington 
who became a vocal critic of Ayatollah Khomeini and founded the Iran 
Freedom Foundation, an organization opposed the Islamic revolutionary 
regime.\3\ In 1979, Salahuddin accepted a post as a security guard 
offered by Ali Agha, the embassy's Charge d'Affaires. Salahuddin was 
moved to a head security post at the Iranian Interest Section at the 
Algerian Embassy after the United States and Iran severed diplomatic 
relations in April 1980. While at this post, according to Salahuddin, 
he was contracted and paid $5,000 to ``kill for the Iranian 
Government.''\4\ Dressed as a U.S. Postal Service mail carrier, 
Salahuddin carried a parcel concealing a handgun to Mr. Tabatabi's 
front door on July 22, 1980. Salahuddin shot Mr. Tabatabi three times 
when he answered the door to his Bethesda home.\5\ Following the 
killing, Salahuddin fled to Canada and purchased a ticket to Paris. 
Eventually, he arrived at the Iranian Embassy in Geneva and received a 
visa to Iran where he was accorded a private meeting with Ayatollah 
Khomeini.\6\ U.S. authorities have charged him with murder; he remains 
a fugitive to this day.
---------------------------------------------------------------------------
    \3\ ``The Assassin--an American Who Killed For Iran'', ABC News 20/
20, January 19, 1996; ``Anti-Khomeini Iranian Slain at Bethesda Home'', 
Washington Post, July 23, 1980; Dawud Salahuddin was originally known 
as David Belfield. He changed his name to Dawud Salahuddin after 
converting. Other known aliases include Hassan Tantai and Hassan 
Abdulrahman.
    \4\ David Ottaway, ``The Lone Assassin'', Washington Post, August 
25, 1996; Ira Silverman, ``An American Terrorist'', The New Yorker, 
August 5, 2002, http://www.newyorker.com/archive/2002/08/05/
020805fa_fact.
    \5\ Ira Silverman,``An American Terrorist'', The New Yorker, August 
5, 2002.
    \6\ David Ottaway, ``The Lone Assassin'', Washington Post, August 
25, 1996.
---------------------------------------------------------------------------
    A 2008 report published by the Iranian Human Rights Documentation 
Center notes a second assassination in the U.S. Nareh Rafizadeh, likely 
targeted because her husband and brother-inlaw had been agents of the 
Shah's intelligence service, was killed in New Jersey in 1992.\7\
---------------------------------------------------------------------------
    \7\ ``No Safe Haven, Iran's Global Assassination Campaign'', Iran 
Human Rights Documentation Center, Appendix 1 ``Chronological List of 
those Killed during the Islamic Republic of Iran's Global Assassination 
Campaign'', May 2008, http://www.iranhrdc.org/english/publications/
reports/3152-no-safe-haven-iran-s-global-assassination-campaign.html.
---------------------------------------------------------------------------
    Iranian intelligence operatives have also engaged in activity in 
support of potential terrorist operations in the United States. In June 
of 2004, two security guards working at Iran's mission to the United 
Nations were kicked out of the country for conducting surveillance of 
New York City landmarks in a manner ``incompatible with their stated 
duties.'' A U.S. counterintelligence official said at the time, ``We 
cannot think of any reason for this activity other than this was 
reconnaissance for some kind of potential targeting for 
terrorists.''\8\ This fits known Iranian modus operandi, as highlighted 
by former FBI director Louis Freeh. Freeh would write in the 1990s, the 
FBI wanted to photograph and fingerprint official Iranian delegations 
visiting the United States because ``the MOIS was using these groups to 
infiltrate its agents into the U.S.''\9\
---------------------------------------------------------------------------
    \8\ Marry Weiss and Niles Lathen, ``2 `Tape' Worms Booted; Iran 
Spies in N.Y.,'' The New York Post, June 30, 2004.
    \9\ Louis J. Freeh, ``American Justice for Our Khobar Heroes,'' 
Wall Street Journal, May 20, 2003.
---------------------------------------------------------------------------
    More recently, in July 2009, Mohammad Reza Sadeghnia, a naturalized 
U.S. citizen of Iranian descent, was arrested in California for 
carrying out preoperational surveillance for the Iranian government. 
Sadeghnia was not a trained operative but a painter living in Michigan, 
which helps explain why he was easily spotted by his targets, Jamshid 
Sharmahd--a member of the Iranian opposition group Tondar, who made 
radio broadcast from his California home--and Ali Reza Nourizadeh, a 
Voice of America employee in London. Despite Sadeghnia's inexperience, 
many factors support the belief that he was an agent of the Iranian 
government. Not only did he plead guilty to the crime, but he traveled 
abroad extensively. Moreover, he not only conducted surveillance on two 
high-profile Iranian dissidents in both California and London, but he 
recruited someone to murder one of his targets and, once on supervised 
release, fled to Tehran.\10\
---------------------------------------------------------------------------
    \10\ Scott Stewart, ``Reflections on the Iranian Assassination 
Plot,'' Stratfor Global Intelligence, 20 October 2011, http://
www.stratfor.com/weekly/20111019-reflections-iranian-assassination.
---------------------------------------------------------------------------
    Iran also has a history of targeting Saudi diplomats. During Iran's 
worldwide assassination campaign targeting political dissidents, 
Hezbollah in Saudi Arabia embarked on a campaign against Saudi 
diplomats and officials. Attacks against Saudi officials abroad 
occurred in Turkey, Pakistan, and Thailand. Indeed, commenting on one 
of these assassinations, a CIA analysis issued in December 1988 noted 
that ``Riyadh is concerned that the assassination of a Saudi diplomat 
in Ankara on 25 October may be the opening round in a Shi'a terrorist 
campaign targeting Saudi officials and facilities.''\11\ According to 
U.S. intelligence, Iranian attacks targeting the Saudis continued even 
under the presidency of the ``moderate'' President Rafsanjani. A CIA 
analysis published in August 1990 assessed that Iran had been 
responsible for ``sponsoring numerous attacks against Saudi interests'' 
over the past year. Moreover, the CIA assessed that Iranian terrorist 
attacks carried out over the past year (1989-1990) ``were probably 
approved in advance'' by the President and other senior Iranian 
leaders.\12\
---------------------------------------------------------------------------
    \11\ ``Terrorism Review,'' Directorate of Intelligence, Central 
Intelligence Agency, December 1, 1988, approved for public release 
March 1998, http://www.foia.cia.gov/.
    \12\ ``Iranian Support for Terrorism: Rafsanjani's Report Card,'' 
Terrorism Review, Directorate of Intelligence, Central Intelligence 
Agency, August 9, 1990, Approved for Release June 1999, http://
www.foia.cia.gov/.
---------------------------------------------------------------------------
                   terror as a tool of foreign policy
    One might assume Iran would behave more cautiously today, at a time 
when it has come under increasing international pressure over its 
rumored pursuit of nuclear weapons, its suppression of human rights at 
home, and its support of terrorism abroad. Indeed, the U.S. Government 
designated the Qods Force as a terrorist group in 2007 for providing 
material support to the Taliban, Iraqi Shiite militants, and other 
terrorist organizations. Most counterterrorism experts, myself 
included, expected that future acts of Iranian terrorism would occur in 
places like Europe, where Iranian agents have long targeted dissidents, 
and not in the United States, where carrying out an attack would risk a 
severe countermeasures, including the possibility of a U.S. military 
reprisal had the attack been successfully executed and linked back to 
Iran.
    Iran's use of terrorism as a tool of foreign policy, however, goes 
back as far as the 1979 Islamic Revolution. Writing in 1986, the CIA 
assessed in a now declassified report titled ``Iranian Support for 
International Terrorism'' that while Iran's support for terrorism was 
meant to further its National interest, it also stemmed from the 
clerical regime's perception ``that it has a religious duty to export 
its Islamic revolution and to wage, by whatever means, a constant 
struggle against the perceived oppressor states.''\13\
---------------------------------------------------------------------------
    \13\ ``Iranian Support for International Terrorism,'' Directorate 
of Intelligence, Central Intelligence Agency, November 22, 1986, 
Approved for Release June 1999, http://www.foia.cia. 
gov/.
---------------------------------------------------------------------------
    In the early 1990s, these interests dictated an increase in 
operational activities in the Gulf. Shiite extremist violence was 
primarily the consequence of Iran's geopolitical calculus and its 
continued enmity toward Sunni Gulf states. To that end, the CIA noted, 
Iran not only supported and sometimes directed Hezbollah operations but 
also ``smuggled explosives into Saudi Arabia and conducted terrorist 
operations against Kuwaiti targets.''\14\ As tensions in the region 
persisted, the CIA assessed in 1992 that ``for now, Iran will sponsor 
easily deniable attacks on U.S. targets and allow Hizballah to 
retaliate for [Hezbollah leader Abbas] Musawi's assassination.''\15\ By 
reaching out to someone believed to be tied to Mexican drug cartels and 
using Arbabsiar as a cut-out, Qods Forces planners likely believed they 
were building for themselves the requisite ``reasonable deniability'' 
that is a central component of Iranian state sponsorship of terrorism.
---------------------------------------------------------------------------
    \14\ ``Terrorism Review,'' 22 October 1987, Directorate of 
Intelligence, Central Intelligence Agency, Approved for Release June 
1999, http://www.foia.cia.gov/.
    \15\ ``Lebanon's Hizballah: Testing Political Waters, Keeping 
Militant Agenda [redacted],'' Central Intelligence Agency, July 1992, 
http://www.foia.cia.gov/.
---------------------------------------------------------------------------
    A 1989 CIA report highlights several factors that made Iran more 
likely to take increased risks in support of terrorism--factors that 
faded somewhat after the mid-1990s but that are now coming back with a 
vengeance. The first was the dominance of radical elements within the 
clerical leadership, which translated into significant Iranian 
hostility toward the West. Then as now, there was little chance more 
pragmatic leaders would come to the fore. Furthermore, igniting 
tensions abroad could shift popular attention away from domestic 
problems, while asymmetrical warfare provided Tehran with a potent 
weapon at a time when its military and economy were weak.
    Underlying Iranian grievances with the West exacerbated these 
tensions in the late 1980s in much the same way that they have today. 
In the late 1980s, Iranian anger was fed by the accidental 1988 downing 
of an Iranian airliner by the USS Vincennes, as well as anger over the 
publication of Salman Rushdie's The Satanic Verses, deemed by Iran to 
be offensive to Islam. Now, the Iranian authorities' anger is fed by 
increasing U.S. and European sanctions plus Tehran's conviction that 
the West is pursuing a ``soft overthrow'' of the Islamic Republic by 
use of modern communications to whip up protests. Tehran thinks that 
the West caused the 2009 protests in Iran and is behind the protests 
shaking Syria now.
    According to CIA reporting in the late 1980s, ``Iranian leaders 
view terrorism as an important instrument of foreign policy that they 
use both to advance national goals and to export the regime's Islamic 
revolutionary ideals.'' The CIA noted that Iran had already ``supported 
and sometimes directed terrorist operations by Hezbollah'' described as 
``a thriving Shia fundamentalist movement in Lebanon.'' Iran had also 
``smuggled explosives into Saudi Arabia and conducted terrorist 
operations against Kuwait targets.'' Iran, the CIA concluded, would 
``keep the United States as a primary terrorist target'' for itself and 
its surrogates for a variety of reasons, including the U.S. military 
presence in the Gulf, the recent reflagging of Kuwaiti oil tankers, the 
seizure of an Iranian ship laying mines in the Gulf, and an attack on 
an Iranian oil platform used to support Iranian military 
operations.\16\
---------------------------------------------------------------------------
    \16\ [sic]
---------------------------------------------------------------------------
                           iran under stress
    Iran's competition for regional dominance with the United States 
and Saudi Arabia is also at least as contentious as it was in the late 
1980s and 1990s. Iran is under increasing international diplomatic and 
economic sanctions, for which it holds both Saudi Arabia and the United 
States responsible--and for good reason. From the Stuxnet virus to the 
assassination of Iranian scientists and the defection of Iranian 
agents, Iran feels increasingly targeted by Western intelligence 
services. And Iran had reason to target Ambassador al-Jubeir in 
particular: According to press reports, a 2008 State Department cable 
made public by WikiLeaks quotes Ambassador Jubeir as telling American 
officials that the king of Saudi Arabia said the United States should 
``cut off the head of the snake,'' a likely reference to an attack on 
Iran.\17\
---------------------------------------------------------------------------
    \17\ ``WikiLeaks Cable Hints at Motive for Alleged Iran Plot,'' 
National Public Radio, October 15, 2011, http://www.npr.org/2011/10/15/
141364863/wikileaks-cable-hints-at-motive-for-alleged-iran-plot.
---------------------------------------------------------------------------
    A few weeks ago, a Western intelligence official and I were mulling 
over the string of attempted attacks by Hezbollah operatives targeting 
Israeli interests over the past 3 years. From Azerbaijan to Turkey and 
from Cyprus to Egypt, terrorist operations by Iran's terrorist proxy, 
often operating jointly with members of the Qods Force, have been 
foiled time and again. But while attacks in the past were widely seen 
as acts of revenge for the 2008 assassination of Hezbollah's Imad 
Mughniyeh, an attack today, this official mused, could just as likely 
be an Iranian-driven plot in retaliation for the sabotage of Iran's 
nuclear program. And Iran, he noted, attributes these setbacks to 
Israel and the United States.
    The fact that the vaunted Qods Force has experienced several recent 
failed attempts to carry out attacks abroad--most notably in Azerbaijan 
and Turkey, both in cooperation with Hezbollah--suggests that the Force 
may be lacking capability and may explain what some have described as 
an unprofessional plot lacking the kind of tradecraft we have come to 
expect from the Iran's IRGC and MOIS. In fact, Iran has relied on 
fairly unskilled and simple operatives to carry out attacks in the 
past. For example, Iran and Hezbollah relied on Fouad Ali Saleh to run 
a cell of 20 operatives responsible for a series of bombings in Paris 
in 1985 and 1986. Saleh, a Tunisian-born Frenchman (a convert from 
Sunni to Shia Islam) who sold fruits, vegetables, and clothing in the 
Paris subway, was as unskilled and unlikely an operative as Arbabsiar, 
the Iranian-American car salesman arrested in the al-Jubeir 
assassination plot.\18\
---------------------------------------------------------------------------
    \18\ Youssef M. Ibrahim, ``Trial of Accused Mastermind in Bombings 
Begins in Paris,'' The New York Times, January 30, 1990.
---------------------------------------------------------------------------
    All the evidence available suggests the attempted assassination of 
Ambassador al-Jubeir was a high-level IRGC plot, though authorities 
have been careful to describe it as ``directed by elements of the 
Iranian government'' and not more than that. It is, however, noteworthy 
that the Treasury Department designated IRGC Qods Force Commander 
Qassem Suleimani as a global terrorist on Oct. 11 because, as commander 
of the Force, he ``oversees the IRGC-QF officers who were involved in 
this plot.'' In the past, major acts of Iranian state sponsorship of 
terrorism have ultimately been linked back to the most senior elements 
of the Iranian leadership.
    Consider, for example, the June 1996 bombing of the Khobar Towers 
housing complex that was home to American, Saudi, French, and British 
service members in Saudi Arabia's Eastern Province--the last time 
Iranian agents carried out an attack targeting both U.S. and Saudi 
interests. In that case, Iranian agents teamed up with Saudi and 
Lebanese Hezbollah operatives to carry out the attack. According to the 
testimony of a former CIA official, arrangements for the Khobar Towers 
attack began around 1994, including planning meetings likely held in 
Tehran and operational meetings held at the Iranian embassy in 
Damascus, Syria. It was in 1994, according to this account, that the 
Supreme Leader of Iran, Ayatollah Khamenei, gave the order for the 
attack on the Khobar Towers complex.\19\ While planning the attack on 
Khobar Towers, Shia extremists continued to carry out other plots, 
including the hijacking of a Saudi Airbus flight, also in 1994.\20\ 
According to former FBI Deputy Director for Counterterrorism Dale 
Watson, evidence the FBI collected to determine Saudi Hezbollah carried 
out the attack at Iran's behest included not only forensics and the 
statements of detained conspirators but also ``a lot of other types of 
information that I'm not at liberty to discuss.''\21\ According to 
Watson, whose tenure at the FBI spanned 24 years and included a stint 
as the Unit Chief for the Iran-Hezbollah unit at FBI Headquarters, 
Hezbollah does not carry out terrorist attacks internationally on its 
own. ``It must be sanctioned, it must be ordered, and it must be 
approved and somebody has to fund it,'' Watson noted in explaining 
Iran's role in the attack.\22\ According to former CIA officer Bruce 
Tefft, the Khobar Towers attack was planned and overseen by Iran's 
Islamic Revolutionary Guard Corp (IRGC) and Ministry of Intelligence 
and Security (MOIS) ``acting on the orders of the Supreme Leader of 
Iran.''\23\
---------------------------------------------------------------------------
    \19\ Testimony of Bruce D. Tefft, Paul A Blais v. Islamic Republic 
of Iran et al, Civil Action No. 02-285, United States District Court 
for the District of Columbia, May 26, 2006.
    \20\ Memorandum for the Secretary of Defense, Report of the 
Assessment of the Khobar Towers Bombing, Downing Assessment Task Force, 
August 30, www.fas.org/irp/threat/downing/report.pdf.
    \21\ Testimony of Dale Watson, Heiser et al v The Islamic Republic 
of Iran, Civil Action Nos. 00-2329, 01-2104, United States District 
Court for the District of Columbia, December 18, 2003.
    \22\ Testimony of Dale Watson, Heiser et al v The Islamic Republic 
of Iran, Civil Action Nos. 00-2329, 01-2104, United States District 
Court for the District of Columbia, December 18, 2003.
    \23\ Testimony of Bruce Tefft, Blais et al v The Islamic Republic 
of Iran, Civil Case No. 2003-285, United States District Court for the 
District of Columbia, May 26, 2003.
---------------------------------------------------------------------------
    Based on evidence gathered in the investigation into the 1994 
bombing of the AMIA Jewish community center in Buenos Aires, including 
the testimony of Iranian intelligence defector Abolghasem Mesbahi, 
prosecutors would ultimately conclude that Iran's Supreme National 
Security Council held a meeting in Mashhad on Saturday, August 14, 
1993, where senior Iranian leaders approved the bombing plot and 
selected the AMIA building as the target. The meeting, chaired by then-
President Ali Akbar Hashemi Rafsanjani, began promptly at 4:30 p.m. and 
ran for 2 hours.\24\ According to the FBI, around the time of this 
August meeting, intelligence reports indicated Hezbollah was ``planning 
some sort of spectacular act against Western interests, probably 
Israeli but perhaps against the United States.''\25\
---------------------------------------------------------------------------
    \24\ Report by the Investigations Unit of the Office of the 
Attorney General, ``AMIA Case'' signed by District Attorney Marcelo 
Martinez Burgos, Attorney General Alberto Nisman, and Secretary of the 
Office of the Attorney General Hernan Longo, October 25 2006, p. 92; 
Larry Rohter, ``Defector Ties Iran to 1994 Bombing of Argentine Jewish 
Center,'' New York Times, November 7, 2003.
    \25\ ``International Radical Fundamentalism: An Analytical Overview 
of Groups and Trends,'' Terrorist Research and Analytical Center, 
Federal Bureau of Investigation, Department of Justice, November 1994, 
declassified on November 20, 2008, http://www.investigativeproject.org/
documents/misc/469.pdf.
---------------------------------------------------------------------------
    To be sure, an Iranian plot to assassinate a prominent diplomat in 
the heart of Washington in an attack that would likely include 
significant collateral damage marks a significant break with the 
traditional modus operandi of Iran's Ministry of Intelligence and 
Security and the IRGC Qods Force. The decision to engage in such a 
brazen, risky, and desperate operation underscores reports of fissures 
within Iranian decision-making circles and suggests powerful elements 
of Iran's ruling elite are under significant pressure. Whatever the 
reason, and despite Iran's apparent attempt to mask its role in the 
plot to assassinate the Saudi Ambassador by employing a team of 
assassins from Mexico tied to a violent drug cartel, the indictment--as 
well as the parallel Treasury Department designations of several senior 
Qods Force officers as specially designated global terrorists--exposes 
Iran for the terrorist state it is. It is too early to tell what the 
consequences of Iran's assassination plot may be, but there should be 
no doubt the plot lays bare the myth that sufficient carrots--from 
offers of dialogue to requests for an emergency hotline to reduce naval 
tensions in the Gulf--can induce the regime in Tehran to abandon its 
support for terrorism, part with its nuclear weapons program, or 
respect human rights.
                          what should be done?
    Pointing to the 1983 and 1984 Beirut bombings, the CIA reported in 
1987 that ``many Iranian leaders use this precedent as proof that 
terrorism can break U.S. resolve'' and view ``sabotage and terrorism as 
an important option in its confrontation with the United States in the 
Persian Gulf.''\26\ That calculus appears to remain intact among senior 
Iranian decision makers. There are, however, several concrete steps 
that could and should be taken in response to the planned assassination 
of Ambassador al-Jubeir to signal the international community's resolve 
to confront Iranian state sponsorship of terrorism. Authorities may 
want to hold back on some more severe actions until after Arbabsiar's 
trial runs its course for fear of acting prejudicially, but the 
intelligence supporting the case appears to be especially strong. On 
that basis, there are several things that could be done now:
---------------------------------------------------------------------------
    \26\ ``Terrorism Review,'' 22 October 1987, Directorate of 
Intelligence, Central Intelligence Agency, Approved for Release June 
1999, http://www.foia.cia.gov/.

    1. Diplomatic Pressure.--Press allies to restrict the size of 
        Iranian missions to the minimum needed to conduct official 
        business, to restrict visits by Iranian officials to official 
        business only (no meetings with sympathizers, no speeches, 
        etc.), and to exercise diligence about the possibility that 
        non-diplomatic Iranian travelers connected to the Iranian 
        government may be engaged in illegal activities. Iranian 
        diplomats should only be allowed to travel outside the city to 
---------------------------------------------------------------------------
        which they are assigned on official business.

    Consider that Iran's intelligence penetration of South America has 
        expanded significantly since the AMIA bombing. Testifying 
        before Congress in the weeks following that 1994 attack, the 
        State Department's coordinator for counterterrorism expressed 
        concern that Iranian embassies in the region were stacked with 
        larger-than-necessary numbers of diplomats, some of whom were 
        believed to be intelligence agents and terrorist operatives: 
        ``We are sharing information in our possession with other 
        States about Iranian diplomats,

    Iranian terrorist leaders who are posing as diplomats, so that 
        nations will refuse to give them accreditation, or if they are 
        already accredited, to expel them. We have had some success in 
        that respect, but we have not always succeeded.''\27\ Another 
        witness recounted meeting with senior government officials in 
        Chile, Uruguay, and Argentina regarding overrepresentation at 
        Iranian embassies in the region in March 1995--8 months after 
        the AMIA bombing. Officials in Chile and Uruguay, the countries 
        of most concern regarding Iranian overrepresentation at the 
        time, indicated that ``the activities of those at the [Iranian] 
        embassy were being monitored and that this was very clearly a 
        concern.''\28\ Five years later, the commander of U.S. Southern 
        Command, which has responsibility for the U.S. military over 
        the southern half of the Western Hemisphere, indicated the 
        Iranian presence in the region had grown still larger by 
        expanding the number of embassies in the region from just a 
        handful a few years earlier to 12 missions by 2010. That, plus 
        Iran's traditional support for terrorism, had General Douglas 
        Fraser concerned. ``Transnational terrorists--Hezbollah, 
        Hamas--have organizations resident in the region,'' Fraser 
        noted.\29\ According to press reports, the Qods Force plot may 
        have also included plans to target Saudi or possibly Israeli 
        diplomats in Argentina.\30\
---------------------------------------------------------------------------
    \27\ Testimony of Ambassador Philip Wilcox, Testimony at Hearing on 
``Terrorism in Latin America/AMIA Bombing in Argentina'' before the 
Committee on International Relations, House of Representatives, 
September 28, 1995.
    \28\ Testimony of Mr. Tommy Baer, president of B'NAI BRITH, 
Testimony at Hearing on ``Terrorism in Latin America/AMIA Bombing in 
Argentina'' before the Committee on International Relations, House of 
Representatives, September 28, 1995, page 34 of oral testimony.
    \29\ Benjamin Birnbaum, ``General in Latin America Trains Eye on 
Middle East,'' The Washington Times, July 29, 2010.
    \30\ Kevi G. Hall, ``U.S. Says Iran Plot to Kill Saudi Ambassador 
Hatched in Mexico,'' The Miami Herald (McClatchy Newspapers), October 
11, 2001.

    2. Press regional bodies, such as the Gulf Cooperation Council, the 
        Arab League, and other regional bodies to condemn the Iranian 
        plot to target one of their most prominent diplomats. Countries 
        in the region and beyond should be pressed to expel known IRGC 
        and MOIS operatives operating out of Iranian embassies; this 
        would send a coordinated message that the world is aware that 
        Iran is proactively engaged in illicit conduct based out of its 
---------------------------------------------------------------------------
        embassies and that such activities will no longer be tolerated.

    3. Build international consensus and support for the suspension of 
        Iran's participation in international bodies until such time as 
        Iran is no longer acting in flagrant violation of its 
        international obligations. To date, Iran participates in 
        several such bodies, including:

      <bullet> The Commission on the Status of Women (UN);
      <bullet> Executive Board, United Nations Development Program;
      <bullet> Board Member, United Nation's World Food Program;
      <bullet> Member, International Olympic Committee;
      <bullet> Member, Interpol;
      <bullet> Member, United Nations World Tourism Organization;
      <bullet> Member, World Health Organization;
      <bullet> Member, The International Fund for Agricultural 
            Development (IFAD-UN);
      <bullet> Member, World Customs Organization.

    4. Military Pressure.--More overtly contest Iranian military 
        activities and support for insurgent elements in Iraq. For 
        example, U.S. unilateral raids or raids undertaken in 
        collaboration with Iraq's Counter Terrorism Service could be 
        accelerated.

    Efforts to bolster Iraqi military tactical intelligence 
        capabilities could also be bolstered with additional training 
        and equipment, provided largely through embedded contractors. 
        Such assistance could allow divisional formations along the 
        Iraq-Iran border to undertake UAV operations, cellphone, and 
        document exploitation, ground-facing radar surveillance and 
        other border security sensors. This would require U.S. 
        Government to consider releasing new technologies to Iraq, 
        which obviously presents certain risks due to Iranian 
        penetration of Iraqi agencies.

    The U.S. military should develop a concentrated program to develop 
        Iraqi Army counterintelligence capabilities. Washington should 
        also consider releasing further evidence demonstrating Iranian 
        complicity in mass casualty attacks in Iraq (Ansar al-Islam/
        Katibat Ul-Kurdistan).\31\
---------------------------------------------------------------------------
    \31\ This section benefited from input from my colleague, Michael 
Knights, who recently spent a period of 3 weeks embedded with Iraqi 
Army headquarters in the south of Iraq.

    5. Customs Controls.--In line with the May 2011 recommendations of 
        the U.N. Monitoring Committee, the United States should partner 
        with the European Union to press allies and U.N. Member States 
        ``to provide information, expertise, and experience to States 
        whose export control regimes and capacities for effective 
        implementation could be strengthened.''\32\ States should be 
        pressed to allow authorities seeking to inspect the cargo of 
        Iranian ships, pursuant to UN Security Council Resolution 1929, 
        the ability to bring said ships to port in their countries for 
        full inspection.\33\
---------------------------------------------------------------------------
    \32\ See leaked UN Panel of Experts Report on Iran Sanctions, May 
2011, http://www.scribd.com/doc/55737041/Leaked-UN-Panel-of-Experts-
Report-on-Iran-Sanctions-May-2011.
    \33\ See UNSCR 1929, http://www.un.org/News/Press/docs/2010/
sc9948.doc.htm.

    Also along these lines, the United States and the European Union 
        could emulate the European Union's Customs and Fiscal 
        Assistance Office program (CAFAO), launched in 1996 to promote 
        the development of a customs service in Bosnia and Herzegovina. 
        The CAFAO was charged with assisting in the creation of more 
        efficient customs services in order to allow for better 
        management of border-crossings and customs checkpoints at 
        airports and naval ports. Further, it was tasked with 
        developing infrastructures to combat organized crime and 
        commercial fraud and to facilitate legitimate trade.\34\ A 
        concerted effort to develop similar infrastructures and build 
        the capacities of other states to combat Iran's illicit 
        financial and procurement activities would be welcome and could 
        be led by a joint USEU effort, perhaps based out of Brussels 
        where DHS and other U.S. agencies are already doing excellent 
        work on customs enforcement related to Iran.
---------------------------------------------------------------------------
    \34\ See ``Cooperation in the Field of Customs and Taxation: The 
European Union and the Western Balkans,'' European Commission, 2005. 
http://www.mathra.gr/files/CAFAO_en.pdf.

    6. Financial Pressure.--Work with allies to sanction and target the 
        full array of IRGC business entities. The IRGC is deeply 
        involved in the suppression of human rights in Iran; it 
        controls the country's nuclear, missile, and other weapons 
        proliferation activities, and it maintains the Qods Forces as a 
        special branch to support terrorism. The plot to assassinate 
        Ambassador al-Jubeir is just the latest IRGC plot authorities 
        have uncovered in a long line of illicit activities the Corp 
        has been involved in from Iraq and Afghanistan to Europe, South 
        America and the United States. Nonbinding sections of U.N. 
        Security Council Resolutions already call on member states to 
        ``exercise vigilance'' toward certain activities related to 
        Iran, particularly transactions involving Iranian banks or the 
        Islamic Revolutionary Guard Corps (IRGC), among other business 
        dealings. While it appears clear a new U.N. resolution is 
        unlikely to pass in the near future, despite the U.N. 
        Monitoring Committee's list of further designations it 
        recommended, pressing allies to do more to enforce such 
        voluntary guidelines would be welcome.\35\
---------------------------------------------------------------------------
    \35\ See leaked UN Panel of Experts Report on Iran Sanctions, May 
2011, http://www.scribd.com/doc/55737041/Leaked-UN-Panel-of-Experts-
Report-on-Iran-Sanctions-May-2011.

    7. Coordinate with European and other allies to allay their fears 
        over the possible unintended consequences of designating Bank 
        Merkazi, the Central Bank of Iran (CBI), for its on-going 
        financial support of Iran's illicit conduct. (As of this 
        writing, Treasury Undersecretary David Cohen is reportedly in 
        Europe doing just this). For all those pressing for a non-
        kinetic measure that would truly affect Iran's bottom line, 
        this is it. U.S. officials have apparently concluded that 
        sanctioning CBI would not throw the international oil economy 
        into a tailspin, and now they must convince key allies so as 
        not to lose their support and maintain a united front against 
        Iran (here, the Saudi's increasing oil production is very 
        useful). The time for such a push is now, as it would come on 
        the heels of this latest plot, a UN report on Iran's horrific 
        human rights record, and the expected IAEA report on Iran's 
        nuclear program. Indeed, in light of recent events most GCC 
---------------------------------------------------------------------------
        countries now reportedly support sanctioning CBI.

    And there is no doubt that targeting the CBI would undermine Iran's 
        on-going effort to engage in illicit conduct. Iran disguises 
        its involvement in financing terrorist activities through an 
        array of deceptive practices. For example, the CBI and other 
        Iranian commercial banks have requested--in order to make it 
        more difficult for intermediary financial institutions to track 
        transitions--that their names be removed from global 
        transitions.\36\ The U.S. Treasury is concerned that CBI may 
        facilitate transactions for sanctioned Iranian banks much like 
        Iran's Bank of Industry and Mine (BIM) has provided financial 
        services to other designated Iranian banks.\37\ Additionally, 
        CBI continues to provide financial services to Iranian entities 
        designated by the U.N. Security Council.\38\
---------------------------------------------------------------------------
    \36\ Bulletin, U.S. Department of the Treasury, ``Guidance to 
Financial Institutions on the Continuing Money Laundering Threat 
Involving Illicit Iranian Activity'', March 20, 2008, http://
www.occ.treas.gov/newsissuances/ bulletins/2008/bulletin-2008-13a.pdf.
    \37\ David Cohen, ``Emerging Threats and Security in the Western 
Hemisphere: Next Steps for U.S. Policy'', Testimony before the Senate 
Committee on Banking, Housing, and Urban Affairs, October 13, 2011.
    \38\ Bulletin, U.S. Department of the Treasury, ``Guidance to 
Financial Institutions on the Continuing Money Laundering Threat 
Involving Illicit Iranian Activity'', March 20, 2008, http://
www.occ.treas.gov/newsissuances/ bulletins/2008/bulletin-2008-13a.pdf.

    I thank you for your attention and look forward to answering any 
---------------------------------------------------------------------------
questions you may have.

    Mr. McCaul. Thank you, Dr. Levitt.
    The Chairman now recognizes Dr. Korb for his testimony.

   STATEMENT OF LAWRENCE J. KORB, SENIOR FELLOW, CENTER FOR 
                 AMERICAN PROGRESS ACTION FUND

    Dr. Korb. Thank you very much, Mr. Chairman. Like General 
Keane, I have testified over 100 times. I have never seen so 
many Chairmen and Ranking Members, so I am honored.
    Yes, this is certainly a critical time for U.S.-Iranian 
relations. I would like to begin by pointing out that the 
success of the law enforcement people here playing a critical 
role shows that in dealing with the threat from terrorists with 
a global reach it does not have to be military. That, in fact, 
we can work with our law enforcement agencies here at home.
    There is no doubt that Iran sponsors terrorism and is 
undertaking an illicit nuclear program. While it might be 
emotionally satisfying to take military action, I think it 
would be exactly the wrong step. You know, if you go back and 
you look at our history, Chairman McCaul was talking about how 
World War I started with an assassination. Everyone agrees that 
that was an overreaction to the assassination and created 
problems that plagued us for the rest of the 20th Century.
    I remember in the Korean War, people wanted, General 
McArthur wanted, us to bomb China. When I was in Vietnam, 
people were talking about using nuclear weapons. Of course, in 
the Cuban missile crisis people wanted us to invade Cuba. Any 
of those steps would have been disastrous.
    I think one example of us overreacting--in what the late 
Ted Sorensen called the mindless, needless, senseless invasion 
of Iraq--did strengthen Iran, and continues to strengthen them 
in that part of the world. It undermined our image throughout 
the world, and made people listen more to Iran.
    My feeling is that this attack, or the alleged attack, is a 
sign of desperation. It shows that the sanctions are working. 
While we should not take anything off the table, I think that 
what we need to do is use this occasion as an opportunity to 
assemble the coalition to increase sanctions. Follow the advice 
of Admiral Mullen, who recently said even in our darkest days 
of the Cold War, we had direct relations with the Soviet Union. 
We should follow that with Iran.
    Now, when people talk about the sanctions not working, I am 
reminded of what a man I had the privilege of serving President 
Reagan used to call the misery index. Take a look at the misery 
index in Iran. It is over 30, when you count both inflation and 
unemployment.
    There is political turmoil. You have had fraudulent 
elections. You have had the fact that the ruling clerics are 
trying to undermine the president. In fact, today there was a 
report that the ruling clerics would like to do away with the 
presidency.
    The nuclear program is not working. David Albright, from 
the Institute for Science and International Security, who is 
the foremost expert on this, has recently argued that the 
program is not working because of all the problems that we are 
having.
    Now, I think the key to the sanctions has got to be getting 
international consensus. The sanctions that were adopted last 
June had U.N. approval, and we had all other countries involved 
with us. That is why they are working. I applaud President 
Obama for freezing the assets of the Mahan Air. I think we 
should begin to move toward getting sanctions on the Central 
Bank, but do not do it unilaterally. It has to be done with the 
rest of the world.
    Let me conclude with this. Everybody talks about how 
horrible Iran is, and they have done a lot of horrible things. 
But let me tell you, they were the first Muslim country to 
condemn the attacks of 9/11. At the Bonn Conference, in which 
we set up the Karzai government, George Bush's Ambassador, Jim 
Dobbins said without the support of Iran, the fact that the 
Karzai government would not have been installed.
    So I think you have to put things into perspective, and 
recognize there have been times that they have worked with us.
    Thank you very much.
    [The statement of Dr. Korb follows:]
                 Prepared Statement of Lawrence J. Korb
                            October 26, 2011
    Chairman Meehan, Ranking Member Speier, Chairman McCaul, Ranking 
Member Keating, and distinguished Members of the subcommittees, thank 
you for inviting me to testify about the Iranian government's alleged 
plans to assassinate the Saudi ambassador to the United States on 
American soil. This event comes at a critical time in U.S.-Iranian 
relations, and it is imperative that the United States not overreact 
but respond rationally and effectively. In this testimony, I will 
discuss how the United States can best respond to Iran in order to 
protect and defend our National security and our interests in the 
Middle East and across the globe in this age of terrorism, tyrants, and 
weapons of mass destruction.
    First, I would begin by congratulating our agents at the FBI and 
Drug Enforcement Administration. This case is a victory for law 
enforcement and a testament to the hard work done every day by the men 
and women at these two agencies to keep our country safe from 
terrorists with a global reach.
    As you all know, in recent years, Iran has repeatedly worked 
against the interests of the United States and the international 
community. In addition to this most recent plot--Iran's boldest but 
also most poorly executed effort to harm the United States and its 
allies--Iran is a known sponsor of terrorism and has pursued an illicit 
nuclear program in defiance of the international community. For 
example, just last spring, the Treasury Department announced it had 
uncovered evidence that Iran was funneling money and recruits to al-
Qaeda in Afghanistan and Pakistan. Additionally, Iran's decision to 
enrich uranium to 20 percent--far more than the 3.5 percent necessary 
to produce nuclear energy--as well as its decision to store this fuel 
in an underground bunker suggests that its nuclear program is not 
designed solely for peaceful purposes. In short, the planned 
assassination of the Saudi ambassador is merely the latest example of 
hostile behavior by Iran.
    The question now facing the United States is how best to respond. 
Over the past 2 weeks, it has been gratifying to hear warnings from 
both sides of the aisle about the perils of reckless military action. 
Political leaders from Sen. John McCain (R-AZ), Ranking Member of the 
Senate Armed Services Committee, to Sen. Diane Feinstein (D-CA), 
Chairman of the Senate Intelligence Committee, to Sen. Joe Lieberman 
(I-CT), Chairman of the Senate Homeland Security and Governmental 
Affairs Committee, have urged restraint.
    In the past, unthinking military action by the United States has 
strengthened Iran's hand. Iran is perhaps the clearest winner from our 
mindless, needless, senseless invasion and occupation of Iraq. The war 
allowed Iran to capitalize on the overwhelming anti-American sentiment 
generated throughout the Arab and Muslim world by our invasion of Iraq 
under false pretenses.
    Moreover, because Iran owns one of the strongest militaries in the 
Middle East, any conflict with Iran would likely be drawn-out and 
costly in both blood and treasure, even greater than the wars in Iraq 
and Afghanistan.
    On the surface, the Iranian plot to conduct a terrorist attack on 
American soil may give the illusion of a strengthened, emboldened Iran. 
In reality, the opposite is true. Iran has been tremendously weakened 
over the past 2 years by the Obama administration's successful efforts 
to muster international support for increased sanctions against the 
country. The Iranian government is divided, widely viewed as 
illegitimate by its people, and isolated internationally. Moreover, 
Iran's economy is in shambles and its nuclear program has stalled, 
partly as a result of the sanctions.
    The clumsy and, frankly, bizarre plot to assassinate the Saudi 
ambassador is a symptom of Iran's desperation. It shows a country 
resorting to asymmetrical methods because it has been weakened 
economically and militarily and divided politically.
    While the United States should not take any options off the table 
in responding to Iranian aggression, a military strike would likely be 
counterproductive. Iran is plagued by internal unrest, and an American 
attack would no doubt unify the country.
    Instead, the United States should further focus its energy on the 
initiatives that have so successfully defrayed Iranian power and 
influence over the past 2 years:

    1. Assembling a unified international coalition that condemns 
        Iranian bad behavior, imposes sanctions, and isolates the 
        country internationally;
    2. And as Admiral Mullen recently noted, reaching out to engage the 
        Iranian government in order to deny Iran's leaders their most 
        effective method of uniting their people: The specter of an 
        ``evil America.''
                            a weakened iran
Sanctions
    Numerous nations and multinational entities have imposed sanctions 
against Iran including the United Nations, the European Union, Canada, 
Australia, South Korea, Japan, Switzerland, India, Israel, and the 
United States. The sanctions have had significant adverse effects on 
the Iranian nuclear program as well as the Iranian economy. More 
specifically, the sanctions have resulted in many oil companies 
withdrawing from Iran as well as a decline in oil production and 
reduced access to technologies needed to improve their efficiency. 
Additionally, many international companies have been reluctant to do 
business with Iran for fear of losing access to larger Western markets.
    Last June, the U.N. Security Council adopted its toughest set of 
sanctions yet and the United States, European Union, Australia, Japan, 
South Korea, and Norway followed up with sanctions of their own. The 
goal is to restrict Iran's access to the global financial system, 
especially major banks. There are provisions in the resolution that 
prohibit any financial services--meaning banking, insurance, re-
insurance--to Iran if there is reason to believe that those services 
could assist Iran's nuclear missile firms. The implementation of the 
financial provisions contained within the Security Council resolution 
has been very powerful--more so than people expected. The sanctions 
have had particularly tangible effects on Iran's oil industry and 
associated sectors.
Economic Turmoil
    Iran's economy has stagnated in recent months, partly because of 
the country's growing isolation from the world economy, partly as a 
result of dipping oil prices, and partly because of the Government's 
statist policies that limit private enterprise. The Islamic Republic is 
beset by high levels of inflation (17.3 percent) and unemployment (13.5 
percent) and low levels of foreign investment.
    Iran cut energy and food subsidies in 2010 which resulted in a 
four-fold rise in the price of petrol and reduced subsidies for bread. 
Subsidy cuts threaten strikes and civil unrest (in 2007 protestors set 
dozens of fuel stations on fire after the system for fuel rationing was 
implemented). Frustration over a lack of economic opportunities--
especially jobs for young people--is widespread among the population.
Domestic political unrest and the 2009 election
    The Iranian ruling elite are widely viewed as corrupt by the 
populace, a dangerous situation given the Arab Spring protests that 
have deposed dictators across the Middle East.
    The 2009 Presidential election ignited popular frustrations about 
government corruption and led to the Iranian Green Movement. The 
official election results had President Mahmoud Ahmadinejad winning 
with a large majority, but opposition candidates challenged that result 
as fradulent. Street protests erupted as voter skepticism rose in 
response to Ahmadinejad's declared victory. Supporters of opposition 
candidate Mir Hussein Moussavi took to the street in protest over the 
election results, and other countries around the world including the 
United States and Canada voiced concern over claims of voter 
irregularities and human rights abuses as the government put down the 
protests. The Ahmadinejad government was able to stay in power only by 
violently cracking down on its own people.
Intra-government tensions
    The Iranian political elite are divided by internal strife between 
President Ahmadinejad and Supreme Leader Ayatollah Ali Khamenei. For 
months the ruling theocracy has been clashing with Ahmadinejad and his 
allies for attempting to challenge the near-absolute authority of the 
cleric-ruled system that has controlled Iran since the 1979 revolution. 
Khamenei and his supporters are expected to continue their attempts to 
push the president further into the political margins by undermining 
his attempts to reach out to the United States and have begun 
assembling a caretaker cabinet in case Ahmadinejad resigns or has to be 
removed. This internal power struggle dilutes Iran's influence 
internationally and calls into question the long-term survivability of 
the regime.
The Arab Awakening
    The Arab uprisings threaten Iran's strongest ally, Syria, and its 
leader Bashar al-Assad. Syria is Tehran's only ally and its partner in 
backing and strengthening the terrorist groups Hezbollah and Hamas. If 
Assad loses control over Syria, new forms of less fundamentalist Muslim 
political expression may emerge into the greater Middle East, making 
the Iranian model less attractive. In Syria, the political balance 
between the minority Alawi Shia regime in Damascus and the Sunni 
majority has shifted irreversibly to Iran's disadvantage. Additionally, 
if Assad is toppled, Syria is likely to be ruled by a Sunni-dominated 
regime that will not be friendly with Iran.
Iran's nuclear program
    Iran enriches its uranium to 20 percent purity, far more than is 
necessary for nuclear energy production, and stores this fuel in an 
underground bunker. These facts suggest that Iran's nuclear ambitions 
are not purely peaceful in nature.
    Last spring, a U.N. report found that the international sanctions 
pushed through in 2010 by the Obama administration were significantly 
hindering the progress of Iran's nuclear program. An article last week 
in the Washington Post echoed these findings, noting that even in the 
wake of the Stuxnet virus Iran's nuclear program continues to be 
stymied by equipment shortages.
                           the u.s. response
    Let me be clear: I do not believe that the United States should do 
nothing and simply wait for Iran to implode. An attempted terrorist 
attack on U.S. soil, no matter how clumsy, cannot be tolerated, and the 
United States should respond strongly and effectively. In responding, 
however, the United States should keep in mind what has made its 
efforts to contain Iran so effective over the past 2 years: 
International consensus.
    The Obama administration should use the Iranian plot to convince 
our allies to recommit themselves to enforcing the current sanctions on 
Iran. This plot provides evidence of continued hostile Iranian 
behavior, evidence that should be used to bolster the international 
coalition against Iran.
    Moreover, the United States should strengthen its own sanctions 
regime and press for stronger international sanctions that can garner 
the support of our allies in this coalition. The sanctions on Iran draw 
legitimacy from the fact that they have been approved by the United 
Nations and even involve some of Iran's former allies, such as Russia 
and China. Maintaining the support of this robust coalition should be 
one of the primary goals of the U.S. response.
    Simultaneously, the United States should continue its efforts to 
engage with the Iranian government. As Admiral Michael Mullen, the 
former Chairman of the Joint Chiefs of Staff, noted last month, ``even 
in the darkest days of the Cold War, we had links to the Soviet Union. 
We are not talking to Iran, so we don't understand each other.'' 
Talking to Iran promotes stability in the U.S.-Iran relationship and, 
to the greatest extent possible, denies the Iranian government the 
ability to use the specter of ``evil America'' as a means of unifying 
the Iranian people.
    Following the Iranian assassination plot against the Saudi 
ambassador, President Obama vowed for the ``toughest sanctions'' yet 
against the Islamic Republic. Thus far, the administration has frozen 
the U.S. assets of Iran's Mahan Air and barred U.S. firms from doing 
business with the airline. In a statement released by the Treasury, 
Mahan Air is accused of closely coordinating with Iran's Qods Force, 
which allegedly was behind the planned assassination. This is a wise 
and measured response by the administration, and the United States 
should continue to press for sanctions on companies that aid Iran's 
nuclear or military ambitions.
    The administration is also said to be ``actively'' considering 
sanctioning Iran's Bank Markazi, or central bank, limiting Iran's 
ability to sell its crude oil and thereby isolating it from the world 
economic system. The success of this endeavor will depend on garnering 
the support of other countries, a challenging but not impossible task 
given the potential that such restrictive sanctions on the central bank 
could harm ordinary Iranians and negatively affect the oil market. I 
applaud the overwhelming support in the Senate for this measure, with 
90 Senators calling for sanctions on the central bank this past August, 
including Senators Feinstein (D-CA) and Kirk (R-IL) in recent days.
    Iranian aggression towards the United States cannot be tolerated. 
But it is important that the U.S. response to the Iranian plot furthers 
our long-term goals: Deterring Iranian aggression and protecting U.S. 
National security. Doing so will require us to work multilaterally with 
our allies. Military action would be counterproductive.

    Mr. McCaul. Thank you, Dr. Korb.
    Colonel Geraghty is recognized.

 STATEMENT OF TIMOTHY J. GERAGHTY, UNITED STATES MARINE CORPS 
                           (RETIRED)

    Colonel Geraghty. Last Sunday was the 20th anniversary, as 
mentioned previously, of the beginning of an asymmetrical war 
raised by radical Islamists against the United States and our 
allies. It was on that day where this coordinated suicide truck 
bombing killed 241 peacekeepers under my command, as well as 58 
French peacekeepers. Those atrocities lead to the withdrawal of 
the U.S. National peacekeeping force from Lebanon, and major 
changes in U.S. National policy.
    Since then, radical Islamism has evolved into the major 
National security threat of the 21st Century. Perhaps the most 
significant development that came out of the Beirut mission was 
the ascent of Iran as a major player not only in the region, 
but globally. Since Iran does not have a border with Lebanon or 
Israel, in the early 1980s it deployed, through Syria, through 
Damascus, a contingent of the Revolutionary Guard into 
Lebanon's Bakaa Valley.
    I might add that that was during the height of the Iranian-
Iraqi War. The Iranians established an operational and training 
base, which remains an active hub of activity today. They 
founded, financed, and trained Hezbollah, as mentioned 
previously, and used those Shiite surrogates to attack the 
peacekeepers that Sunday morning in Beirut.
    We can see today that Iran's entity into Lebanon was a 
game-changer and continues to destabilize Lebanon, attack 
Israel indirectly, while raising its stature and popularity and 
influence throughout the Arab world. Iran has the capability 
today, and uses it to cause havoc on several fronts, on its own 
schedule, that provides convenient distractions while its 
nuclear centrifuges spin.
    The Iranian mullahs waging a radical war, an aggressive 
campaign, support al-Qaeda, Hamas, Hezbollah, Palestinian 
Islamic Jihad, three of whom are Sunni. They support the 
Taliban, as mentioned previously by the general, in Afghanistan 
against NATO forces, and use the Qods Force in Iraq to finance 
and equip both Sunni and Shia militias.
    Some key leaders who are implementing the Iranian mullahs' 
policies are worthy of closer scrutiny, and harken back to the 
Beirut days. Mostafa Mohammad-Najjar, veteran commander of the 
IRGC, the 150,000-man IRGC, was named minister of defense in 
2005. In 1983, he was the commander of the IRGC Lebanon 
contingent, and was directly responsible for the Beirut truck 
bombing.
    Today, he is the minister of interior in Iran, and they 
have redeployed IRGC forces around the major capitols in there, 
and why you are not hearing any of the protests coming out of 
Iran with the Arab Spring protests throughout the Middle East.
    Ahmadinejad's fiercely-disputed re-election in 2009 reveals 
another connection with Lebanon. His selection--incidentally, 
to put down that those protests in Iran at that time--they 
imported some of his Falah thugs from Lebanon that they had 
trained. His selection as the new defense minister, and 
current, is General Ahmad Vahidi, who also participated in the 
1983 peacekeepers bombings and later succeeded Najjar as the 
commander of the Lebanon contingent.
    He is the one who founded the Qods Force, serving as its 
first commander. He is currently on Interpol's most-wanted 
list, the Red Notices, for the bombings in Buenos Aires of the 
Israeli Embassy in 1992, killing 29, and the Jewish Community 
Cultural Center in 1994, killing 86.
    Vahidi was linked by the European Union in 2008 for Iran's 
nuclear activities and the development of nuclear weapons 
delivery systems, while overseeing the research and development 
of weapons of mass destruction. Vahidi's assignment and 
background is why Iran retains the dubious distinction, for 
over a quarter of a century, of being the world's leading state 
sponsor of terrorism.
    The expanding relationship between Iran President 
Ahmadinejad and Venezuela President Hugo Chavez requires closer 
vigilance by the United States and our allies. Their open boast 
to oppose world hegemony is clear propaganda to provide cover 
for other activities. Plans include Russia building an arms 
plant in Venezuela to produce AK-103 automatic weapons and to 
send 53 helicopters, military helicopters.
    Besides having major operating bases in the tri-border 
regions of Argentina, Brazil, and Paraguay, they have also 
established another one on Venezuela's Margarita Island.
    Mentioned previously, the weekly flights from Iran to 
Venezuela are not monitored, which bring back memories of my 
multinational peacekeeping headquarters in Beirut at Beirut 
International Airport, which later evolved, in the late 1980s, 
as a terrorist hub. The U.S. Southern Command has expressed 
concern on the growing connections between Iran and Hezbollah. 
All this is happening--is not happening without a purpose.
    The DEA chief of operations has confirmed Hezbollah 
operations have formed a partnership with major Mexican drug 
cartels. They have been using the smuggling routes to smuggle 
both people and contraband into the United States. These 
developments should cause red flags to fly, and I know a lot of 
attention is being paid across the intelligence, defense, 
diplomatic, and home security communities.
    We have to presume that Hezbollah cells are in the United 
States and being fortified, awaiting Iranian orders. To 
discount this threat and their capabilities would be an 
invitation to disaster. Reports from the Homeland Security 
documents, that earlier revealed that over 180,000 illegal 
aliens from countries ``Other Than Mexico'' were apprehended 
between 2007 and 2010, question how many we missed.
    The recent Iranian-backed plot to assassinate Saudi 
Arabia's ambassador to the United States involving a key Qods 
Force commander linked to the killing of U.S. troops in Iraq 
should come again as no surprise. The leader of that group 
operated within the Iraqi militia of cleric Sadr, dressed as 
U.S. and Iraqi soldiers in assault in Karbala, which killed 
five Americans. According to a Treasury report, he supplied 
Sadr's group also with the weaponries.
    The cousin that was arrested is a co-conspirator with 
Manssor Arbabsiar, an Iranian-American living in Texas. The 
bizarre plot involving using Mexican drug traffickers to bomb 
the restaurant in Washington which the ambassador frequented, 
when you stop and realize using that bizarre plot--that is 
like, in sales lingo, not a cold call--why you would use that 
link unless there is a lot of previous activity.
    The uniqueness of the plot provides some insight to the 
nature of the asymmetrical threat we face. The plotters also 
discussed bombing Saudi and Israeli embassies in Washington. My 
question is the modus operandi that was considered: Did it 
involve a Beirut truck-bombing model used by them against the 
U.S. Embassy in Beirut and the peacekeepers in 1983, or the two 
U.S. embassies in West Africa, Tanzania, and Kenya in 1998, or 
the Israeli embassy in Buenos Aires in 1992?
    In closing, I believe Iran is intent on attacking us in the 
homeland. All one needs to do is to review their strategy, 
their behavior, their attacks and their targets of the past 3 
decades. Their ideology, mixed with their obsessive hatred of 
America, makes us a prime target. The use of proxies have 
proven to be successful, while avoiding any retribution for the 
carnage they have wrought as the leading state sponsor of 
terrorism.
    One of the questions we should ponder in our timid response 
to Iranian carnage in the last 3 decades is if they feel they 
could go nuclear with impunity. The commendable work being 
performed daily across the defense, intelligence, and domestic 
law enforcement agencies is a matter of record. Our National 
unity and eternal vigilance is required now more than ever.
    Thank you.
    [The statement of Colonel Geraghty follows:]
           Prepared Statement of Colonel Timothy J. Geraghty
                            October 26, 2011
    October 23, 2011 marked the twenty-eighth anniversary of the 
beginning of an asymmetrical war waged by radical Islamists against the 
United States and its allies. It was on that day in 1983 during the 
Lebanese civil war that coordinated suicide truck bombings in Beirut, 
killed 241 American peacekeepers under my command, as well as 58 French 
peacekeepers. These atrocities lead to the withdrawal of the 
Multinational Force from Lebanon and to major changes in U.S. National 
policy. Since then, radical Islamism has evolved into the major 
National security threat to Western civilization.
    Perhaps the most significant development that grew out of the 
Beirut peacekeeping mission was the ascent of Iran into becoming a 
major player, not only in the region but also globally. Since Iran does 
not share a border with Lebanon (or Israel), in the early 1980's it 
deployed through Syria a contingent of its Islamic Revolutionary Guard 
Corps (IRGC) into Lebanon's Bakaa Valley. The Iranians established an 
operational and training base that remains active to this day. They 
founded, financed, trained, and equipped Hezbollah to operate as a 
proxy army and used these Shiite surrogates to attack the U.S. and 
French peacekeepers early that October morning. We can see today that 
Iran's entry into Lebanon was a game-changer while continuing to 
destabilize Lebanon and attack Israel indirectly, which raises its 
stature, popularity, and influence throughout the Arab region and 
globally. Iran's capability to cause havoc on several fronts and on its 
own schedule provides convenient distractions while its nuclear 
centrifuges continue to spin.
    Iranian mullahs, while waging a radically aggressive campaign, 
support al-Qaeda, Hamas, Hezbollah, and Palestinian Islamic Jihad, 
three of whom are Sunni. They also support the Taliban in Afghanistan 
against NATO forces and use the IRGC's elite Qods Force to train, 
finance, and equip Sunni and Shiite militias in Iraq.
    Some of the key leaders who are implementing the Iranian mullahs' 
aggressive policies are worth closer scrutiny. Mostafa Mohammad-Najjar, 
a veteran commander of the 150,000-man IRGC, was named minister of 
defense in August 2005. In 1983, he was commander of the IRGC 
contingent in Lebanon and was directly responsible for the Beirut truck 
bombings.
    Ahmadinejad's fiercely disputed reelection in 2009 also reveals 
another connection with IRGC in Lebanon. His selection as the new 
minister of defense, Gen. Ahmad Vahidi, also participated in the 1983 
Beirut bombings and later succeeded Najjar as commander of the IRGC 
contingent. He founded the elite Qods Force of the IRGC, serving as its 
first commander. He currently is on Interpol's most-wanted list, the 
Red Notices, for the bombings in Buenos Aires of the Israeli Embassy in 
1992 killing 29 and the Jewish Community Cultural Center in 1994 
killing 86. Vahidi was linked by the European Union to Iran's nuclear 
activities and its development of nuclear weapons delivery systems 
while overseeing the research and development of WMDs. Vahidi's 
assignment and background lays out a bloody roadmap of Iranian 
intentions. It also provides a deeper understanding as to why Iran has 
retained the dubious distinction for over a quarter-century of being 
the world's leading state-sponsor of terrorism.
    The expanding relationship between Iranian President Mahmoud 
Ahmadinejad and Venezuelan President Hugo Chavez requires close 
vigilance by the United States and our allies. Their open boast to 
``oppose world hegemony'' is clear propaganda to provide cover for 
other activities. Plans include Russia to build an arms plant in 
Venezuela to produce AK-103 automatic rifles and to send 53 military 
helicopters. Besides having a major operating base in the tri-border 
areas of Argentina, Brazil, and Paraguay, they have also established 
another one on Venezuela's Margarita Island. Weekly flights between 
Iran and Venezuela are not monitored which brings back memories of my 
U.S. Multinational Peacekeepers headquarters at Beirut International 
Airport in 1983 and which evolved into a terrorist hub in the late 
1980's. The U.S. Southern Command has expressed concern of the 
connections between state sponsor of terrorism Iran and Hezbollah. All 
this is not happening without a purpose.
    The former Drug Enforcement Agency Chief of Operations Mike Braun, 
confirmed that Hezbollah operatives have formed a partnership with the 
Mexican drug cartels. They have been using cartel smuggling routes to 
get people and contraband into the United States. These developments 
should cause many red flags to fly for the intelligence, defense, 
diplomatic, and Homeland Security communities. We have to presume that 
Hezbollah cells are present and being fortified while awaiting orders 
from Iran. To discount this threat and their capabilities would be an 
invitation to disaster. Reports from DHS documents reveal that over 
180,000 illegal aliens from countries Other Than Mexico were 
apprehended from 2007 and mid-March 2010 which begs the question of how 
many we missed.
    The recent Iranian-backed plot to assassinate Saudi Arabia's 
Ambassador to the United States involved a key Qods Force commander 
linked to the killings of U.S. troops in Iraq. This should come as no 
surprise. Abdul Reza Shahlai led a group of the Qods Force, within the 
Iraqi militia of cleric Moqtada al Sadr, dressed as U.S. and Iraqi 
soldiers, in an assault in Karbala which killed 5 Americans. According 
to a U.S. Treasury report, he supplied Sadr's group with weapons. 
Shahlai is the cousin of the arrested co-conspirator Manssor Arabsiar, 
an Iranian American living in Texas. The bizarre plot involved using 
Mexican drug traffickers to bomb a restaurant in Washington, DC which 
the Ambassador frequented. The uniqueness of the plot provides some 
insight to the nature of the asymmetrical threat we face. The plotters 
also discussed bombing the Saudi and Israeli Embassies in Washington. I 
wonder if the modus operandi considered involved the Beirut truck-
bombing model used against the U.S. Embassy in Beirut and the U.S. and 
French Peacekeepers headquarters (both 1983); the two U.S. Embassies in 
Tanzania and Kenya (1998) and the Israeli Embassy in Buenos Aires 
(1992).
    In closing, I believe that Iran is intent in attacking us in our 
homeland. All one needs to do is review their strategy, behavior, 
attacks, and targets the past 3 decades. Their ideology mixed with 
their obsessive hatred of America makes us a prime target. Their use of 
proxies has proven successful while avoiding any retribution for the 
carnage they have wrought as the leading state-sponsor of terrorism. 
The commendable work performed daily across our defense, intelligence, 
and domestic law enforcement agencies is a matter of record. Our 
National unity and eternal vigilance is needed more than ever.

    Mr. McCaul. Thank you, Colonel. Let me thank you again for 
your service, particularly on that tragic day in Beirut.
    The Chairman now recognizes himself for 5 minutes for 
questions. Colonel, I agree with you that we have had a timid 
response to Iran since 1979.
    General Keane, you outlined, I thought, very masterfully 
all the attacks and attempted attacks on the interests of the 
United States since 1979. The failure of both parties, either 
parties and administrations prior, to adequately respond to the 
threat. Now we have an attempted assassination attempt on a 
foreign official in our Nation's Capitol.
    Fortunately, it was foiled. But according to your 
testimony, General Keane, this goes to the highest levels, when 
you said that the Ayatollah Khomeini, at a minimum, approved 
the plan and may have directed it. That is very bold and, if 
true, I think deserves a proper response. You mentioned our 
policy has failed. We have had sanctions on and off since 1979. 
That we are still faced with this threat that continues.
    I think you mentioned we need to treat Iran as a strategic 
enemy. I agree with that. So to both the general and the 
colonel, what do you think should be the proper response to 
deal with Iran?
    General Keane. Well, as I said in my remarks, step one is 
to recognize them as our strategic enemy, and therefore, use 
only elements of National power, as such, to push against that 
enemy. I am not suggesting that the first push should be a 
military one--quite the contrary.
    But let us face it, I mean, even the sanctions we use have 
never had any major impact on these guys because they are not 
tough enough. Lay down every single interest that they have, 
and then counter that interest. We know that when they took 
power they took all the shah's business interests around the 
world, many of them in Europe and some of them in the Middle 
East. They have those business interests. They are billionaires 
because of it. Let us go get them. Why do we tolerate that?
    There are so many other things that we can do, and people 
on this panel have outlined those things. Let us not wring our 
hands. If the international community does not want to step up 
to it we go without them. If we do not take measures, serious 
measures, and introduce fear to them, they are going to keep 
killing us until they eventually get a weapon that can truly 
hurt us. So I am suggesting that we get comprehensive and 
holistic about what we are doing.
    I am not suggesting for a minute that we start with some 
small things and then lead up to larger things. I am saying we 
put our hand around that throat right now in every interest 
that they have. We have a significant offensive cyber 
capability in this country that no one else in the world has. 
Some are close. We can do limited cyber attacks. That takes a 
Presidential finding. But why are we not doing that? That would 
have a rather dramatic impact.
    Why are we permitting the Qods Force leaders who have been 
organized in this killing of us for 30 years to go around, 
still walking around? Why do we not kill them? We kill other 
people who are running terrorist organizations against the 
United States. These guys have killed almost a thousand of us. 
Why do not we kill them? Why do we not conduct espionage 
against them?
    We have people in our Government who know how to do this. I 
am not suggesting a military action. I am suggesting covert 
action that has a degree of deniability to it. My partner to my 
left here knows more about this than I could possibly ever 
know, but I am suggesting that----
    Mr. McCaul. Unfortunately, I only have a minute left. Let 
me just say this. I agree. I do not think anybody wants to go 
to war with Iran. But I do think we need a tougher response, 
particularly in light of this assassination attempt, you know, 
in the Nation's capitol.
    Colonel, I want to give you the last word in my little bit 
of time left. You discussed quite extensively a connection 
between Tehran and Caracas, between Iran and Venezuela--and 
Latin America, the fact that Hezbollah forces are in Latin 
America, the fact that Hezbollah forces may actually be working 
with drug cartels. I think, in your words, this probably was 
not a ``cold call.'' They may have been connected with them 
previously.
    Could you expand upon that?
    Colonel Geraghty. Well, it is almost like a play I have 
seen before, establishing a base in Lebanon and using that. 
Look what they have expanded that to today, where really it is 
preventing any kind of the larger issues, preventing any kind 
of accommodation, between the Palestinian and the Israelis that 
went to Hamas. They have expanded that. They have become a 
major player and a major threat that they never had before 
that.
    That is why I say the Iranian Revolutionary Guard moving to 
Lebanon at the time we were there on a peacekeeping mission was 
a game-changer. Because they brought capabilities with them 
that certainly were not there before. I mean, the bomb that we 
faced was not put together by any Shias. It was not put 
together, you know, in a weekend over a garage. It was the 
largest non-nuclear explosion ever recorded, still retains 
that. The magnitude of the bomb really predetermined mass 
casualties, and the removal, really the destruction, of the 
mission at the same time.
    Moving that to Venezuela and so on, I would state that the 
Qods commander connection with the assassination plot here is 
the fellow that I pin, has to be, one of the key guys in the 
planning and control of the Qods Force, is the founder that was 
in Beirut, is the current minister of defense, Vahidi.
    He is the one that founded it. Just look at the jobs he has 
had before he has been the minister of defense. It is all key 
jobs that lays out, like I mentioned, a roadmap. He was in 
Venezuela earlier this year. He was expelled from Bolivia after 
Interpol came because he is on their Red Notice, too. But he 
travels under diplomatic cover.
    The point is, he is probably the key guy that is 
orchestrating all this, not only the use of the Qods Force but 
specific missions, I would think, and has that kind of 
influence with the mullahs.
    Mr. McCaul. Thank you, Colonel.
    Let me also echo Dr. Levitt's testimony. The Qods should be 
designated as a foreign terrorist organization. I think that 
would be helpful. These flights going between Caracas and 
Tehran, they cannot be checked by Interpol. The international 
community cannot check these flights. I have had Bolivian 
lawmakers tell me that there is uranium on these flights going 
to Iran. I think it is time, as General Keane mentioned, to 
start stepping up to the plate and responding.
    So with that, I now recognize the gentlelady from 
California, Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you again to all of our witnesses. I do not think we 
could say often enough to General Keane and Colonel Geraghty 
the great service that you have provided to our country. It is 
very commendable.
    Let me start with you, Dr. Korb. You testified about a few 
of the successes the various sanction programs have achieved. 
Can you describe the U.N. sanctions that are designed to 
restrict Iran's access to global financial systems?
    Dr. Korb. Last June, the U.N. Security Council adopted its 
toughest set of sanctions. The United States, the European 
Union, Australia, Japan, South Korea, and Norway followed up 
with sanctions of their own. The goal is to restrict Iran's 
access to the global financial system, especially major banks. 
There are provisions in the resolution that prohibit any 
financial services, meaning banking, insurance, reinsurance to 
Iran if there is reason to believe those services could assist 
Iran's nuclear firms.
    These sanctions have been very powerful, I think more 
powerful than most people expected. They have had particularly 
tangible effects on Iran's oil industry and associated sectors. 
That is why I mentioned what President Regan used to call the 
misery index is beginning to create problems for Iran 
internally.
    Ms. Speier. You referenced in your comments, as well, that 
the plots may indeed be a sign of Iran's weakness and 
desperation. Can you expand upon that a little bit for us?
    Dr. Korb. Well, I think if you take a look at the fact that 
the government now is in chaos, they are concerned about the 
Arab Spring. Because this is undermining the Iranian narrative, 
you know, that the Islamic Republic should be the future of the 
Arab and Muslim world. We know that when President Ahmadinejad 
accepted some of our offers about enriching nuclear energy, and 
asked for us giving him nuclear materials that they could use 
for additional purposes, he was undermined by the ruling 
clerics.
    As I mentioned this morning, the ruling clerics are now 
basically saying that they do not want to have a president 
anymore. We know what happened, of course, in the 2009 
election. So with their influence declining, with them having 
economic problems, this was--as some people talked about if, in 
fact, it is true--a potential game-changer to show that they 
are still relevant.
    I think the very fact that they allowed this renegade--I 
mean, this was the Keystone Kops if you take a look at the way 
this was done--the very fact that they would allow that to 
happen shows that the country is in disarray and they are 
becoming desperate.
    Ms. Speier. The movement of the money is something that 
still kind of perplexes me. Do any of you have any knowledge of 
how this money could have been moved and masked so that we 
would not know about it?
    Dr. Levitt. None of us know exactly how it happened. It has 
not been made public yet. But when I was deputy assistant 
secretary for intelligence at Treasury, this is the type of 
thing we looked at very closely. Clearly, it could not be sent 
directly from an Iranian account directly to an American 
account.
    But there are many, many ways it could have been sent and 
masked either through formal banking channels, through informal 
banking channels, or a combination of both--meaning bank 
transfers, Hawala deals. But bottom line is, it probably was 
sent--and the indictment says it came from Iran--in some way 
that was able to be traced through at least one other third 
country.
    But with one cut-out you can pretty easily send those 
funds.
    Ms. Speier. Dr. Korb, back to you. You said the nuclear 
program is not working. Can you elaborate on that somewhat?
    Dr. Korb. Yes. As you mentioned in your opening statement 
here, the report in the Washington Post quoted high-level 
Government officials in the intelligence community--and also 
David Albright, who had monitored this closely--saying that as 
a result of the so-called computer virus, Stuxnet, and also 
with the sanctions that have happened, that their nuclear 
program is not where they would like it to be.
    They do not have access to all the materials that they 
would like in order to move in the direction that they would 
like. So what has happened is, this program has stalled. You 
know, it is very interesting. You can go back, and I can show 
you statements from people going back to 2004, saying in 6 
months they are going to have a nuclear weapon, then 6 months 
and 6 months.
    They do not have it yet. I think what has happened is, this 
shows that the international community, acting together, has 
made it difficult for them. You know, we talk about Russia 
actually backed off a deal they had made to send them, you 
know, missiles as a result of these sanctions. So I think what 
has happened is, they are no further along than they were a 
couple of years ago.
    Ms. Speier. Thank you, Mr. Chairman. My time has expired.
    Mr. McCaul. The Chairman now recognizes Mr. Meehan.
    Mr. Meehan. Thank you, Mr. Chairman. Thank you for this 
distinguished panel, who has really opened our eyes.
    I go back again to the commentary that I made at the 
beginning about what we have been through before. Colonel, you 
discussed this. We are looking at the past, and when we had 
analyzed the past after 9/11 we talked about the failure of 
imagination. Today, each of you has identified, at various 
points, the concept of red flags.
    Now, our committee has worked on the issue of this. We are 
aware of the Iranian nuclear ambitions. We are aware of their 
animosity towards Israel. What we begin to study more is the 
use of these proxies outside of the Middle East and now 
increasingly closer to our homeland.
    We have heard testimony today about the activity inside the 
Margarita Islands, where Chavez has worked and created a 
stepping-off point. We have now seen the creation of 
relationships with Mexican drug cartels. But the significance 
to me there is the reality that this cartel could create the 
opening, or opportunity, for terrorists to get into our country 
much easier than we may perhaps anticipate.
    We have heard testimony today about an Iranian presence in 
Canada. My real question here is: Is this a red-flag moment? 
Have we seen a time in which we have seen Iran cross the line? 
We have a window, Dr. Korb, as you have said, perhaps right 
now. We have got some desperation on the part--and this is 
showing a sense of inability.
    But we have also heard testimony about persistence, and 
sloppiness, but still having results. It is clear in 
everybody's mind that the game remarkably changes if Iran ever 
gets a nuclear weapon.
    As a result, this appears to be a remarkable moment of 
opportunity. Should we be concerned about the ability, however, 
of Iranian influence, proxies or otherwise, to use the 
groundwork that they have laid as the ability to penetrate our 
homeland and to use that as leverage against any kind of more 
proactive stands against Iran?
    We have discussed a series of sanctions, but we also see 
the realistic capability for Iran to strike back. What are the 
implications of our continuing efforts to try to tighten the 
screws on Iran? I ask the panel, each of you, to answer that 
particular question. What should we be doing next?
    Mr. Gerecht. I guess I could go first there. I mean, again, 
I have nothing against sanctions. I think there are lots of 
sanctions the United States should tighten. I am in favor of 
most of what we might call Central Bank sanctions, the Iran 
oil-free zone. There are lots of different things you can do.
    But again, I just emphasize. The people who rule Iran rose 
up essentially through killing people. All right? They have 
maintained a coercive system. It has become more coercive with 
time, not less. They do not respond in the same rational 
economic ways that we do. Iran would not look like the country 
than it is today if they were concerned about the bottom line.
    So I do not think that you are going to really intimidate 
these people, get their attention, unless you shoot somebody. I 
do not know. It is pretty blunt, but I do not think you get to 
get around it. I think, for example, if we believe that the 
Guard Corps is responsible for this operation, then you should 
hold Qassem Soleimani responsible. Qassem Soleimani travels a 
lot. He is all over the place. Go get him. Either try to 
capture him or kill him.
    But I think you have to send a pretty powerful message to 
those who have undertaken this, or I think down the road you 
are asking for it. They will read this not as a response of 
someone who is strong, but as a response of someone who is----
    Mr. Meehan. There has been a totality of things identified 
today that could be pretty significant. Do we have to get to 
the point of some kind of an actual aggressive military 
response to still be able to accomplish significant inroads in 
interfering with Iran's ability to carry out this proxy 
terrorism, as well as move towards a nuclear capability?
    Mr. Gerecht. Well, you could aggressively harass many of 
their operations overseas. There is no doubt about that. But 
you would have to have a consensus to do that. I mean, needless 
to say, the White House, the CIA would have to be on-board to 
do that. You would have to have the approval to do that. We all 
know it is Washington, DC. These things are difficult to do.
    So, you may find out that this type of covert action is 
actually much more difficult to do than going after, say, 
Qassem Soleimani when he travels.
    Dr. Levitt. If I may add, and I agree, there has to be 
something clear that is done. You know, in 1987, referring back 
to the 1983 and 1984 Beirut bombings, the CIA reported that 
many Iranian leaders, and I am quoting--``use this precedent as 
proof that terrorism can break U.S. resolve, and the use of 
sabotage and terrorism is an important option in its 
confrontation with the United States in the Persian Gulf.''
    I agree that something like this really is a red flag, in 
the sense that they have decided to carry out an operation in 
the United States. The question is how to respond. I do not 
think we necessarily have to put a bullet in someone's head. I 
do think that if we are not--and I hope we are already--that 
there should be a significant covert action program in place to 
deal with these types of things, sometimes sophisticated, 
sometimes not so much.
    In fact, sometimes the Iranians, just to make sure that we 
know that they know what is going on, would surveil our 
diplomats in different places using Iranian diplomatic vehicles 
with tags just so that we know they are there. Even just that 
type of thing, together with other things, can be very 
effective. I have listed out a bunch.
    I just want to say one thing about sanctions, as someone 
who is a Treasury official at one point. I said this was in 
Government, I say it all the time now. I think the sanctions 
have been tremendously, tremendously effective. But let us be 
clear, they were never intended, and they never will, solve 
your problem--not the counterterrorism sanctions, not the North 
Korea sanctions, not the Iran sanctions.
    Where they are most effective, and where they have been 
effective and will continue to be effective, though there is a 
lot more that could be done, is in disruption. They have slowed 
down the program. They have not ended it. Iran is actually much 
further along than it was. But, you know, if every 6 months we 
think they are about to get a bomb and they do not--if 10 years 
from now we are still having this conversation--that is a level 
of victory, but it is not a policy.
    It does not get us where we want to be. So it has to be 
used in tandem with other things. Military options, diplomatic 
options, covert action, customs enforcement, enforcements of 
current sanctions, all of these have to be done in a way that 
will send a message to Iran that we are serious about this. But 
these one-off designations do not help.
    I will give you one recent example. Right after this plot 
was revealed, Treasury designated several individuals to reveal 
a little more information, clearly based on intelligence, about 
the nature of the plot, including re-designating Qassem 
Soleimani, the head of the Qods Force, this time on a terrorism 
basis.
    He had already been designated twice--once in a 
proliferation executive order, once in a human rights executive 
order for his actions supporting the Syrian regime's 
suppression of its people there. On the one hand, that is great 
because we use this as a vehicle to get out to the public that 
we believe that this was not a rogue operation. That this was 
done at the very highest levels of the Qods Force.
    But in the other hand, if I am Qassem Soleimani and I am 
sitting at my desk and I say. ``Okay, so the U.S. Government 
designated me a third time,'' now I am worried.
    So there are different reasons to use these tools, but I do 
not think we are using them enough, in tandem with others, 
aggressively enough to make Iran care. We are risk-averse, and 
frankly afraid of our shadow, when it comes to dealing with 
Iran. They are extremely aggressive. It is not a combination 
that is going to work for us.
    Dr. Korb. Let me say something I think is very important.
    Mr. McCaul. I am sorry----
    Dr. Korb. We----
    Mr. McCaul. Well, I will let you respond, but we are 
running over the time. I want the other Members to ask 
questions.
    Dr. Korb. No, go ahead.
    Ms. Speier. Mr. Chairman, in fairness to Dr. Korb he did 
not use his entire 5 minutes. So maybe we can give him a 
minute.
    Mr. McCaul. Okay, fair enough.
    Dr. Korb. Thank you. Okay. I think we Americans like to 
solve problems right away. But I think we have to be patient. 
In the long run, time is on our side. If we overreact, you 
know, by using military force, this will unite them. I think if 
we are patient and we continue to do these things, some of 
which have been mentioned by my colleagues, eventually this 
regime is going to have to change its character.
    If you had told Americans back when President Truman came 
up with the Marshall Plan that the Cold War was going to last 
another 40 years or something, the people would say, ``No, we 
can't wait that long.'' You had President Eisenhower have to 
stop people from the Rollback Strategy.
    I think you need to be patient, need to keep taking the 
steps. The more contentious you get from the international 
community, the more effective they are going to be.
    Mr. McCaul. Thanks, Dr. Korb.
    The Chairman now recognizes Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I am going to try 
something because my time is limited. I am going to give a 
comment, and then ask three different questions and ask you all 
to just jump in.
    First the comment. Is my recollection--correct me if I am 
wrong--that the President of the United States has not ruled 
out military action in terms of Iran? I have heard his 
statements. So my comment is: What more can he do in terms of 
what he says?
    Now the three questions. One of them, a little real 
provocative, I think. I was in Pakistan fairly recently, and I 
was astounded when I saw three different officials in Pakistan 
tell me that they did not believe the United States killed 
Osama bin Laden.
    I asked them how they came to that conclusion. I was 
incredulous actually. Even al-Qaeda admitted that. I asked them 
where they came to that conclusion, and they all cited the 
information and propaganda coming from Iran. So my question is: 
I think that their propaganda machine is being pretty effective 
if they could ever come to that conclusion--what can we do to 
conquer it?
    No. 2, I think it has been touched on, but it is a common 
thread. Mr. Gerecht mentioned, I think, Canada. Dr. Levitt 
mentioned Latin America. Colonel Geraghty mentioned the 
homeland threat. What are the threats in the Western Hemisphere 
that we should be really vigilant about? Because I find that to 
be a common thread.
    The third thing, there is an axiom about the enemy of your 
enemy is your friend. It is my belief that within Iran there is 
an internal conflict historically, and I think it still exists 
with the Ayatollah and Ahmadinejad. There is a conflict with 
them. Is the United States, non-intentionally, acting in a way 
that we are inhibiting that internal conflict that is there 
from incubating and maybe causing problems within Iran itself?
    So those are the three questions, and I will throw it open 
to anyone that wants to answer those things. First being 
propaganda, second being Western Hemisphere threat, third is 
are we doing things unintentionally to maybe not let the 
percolation of their internal conflict grow?
    Dr. Korb. If you take the first one, the propaganda, I 
think we have to recognize that because we invaded Iraq under 
false pretenses people do not trust a lot of the things that we 
say in that part of the world. Also, during the 1990s we cut 
back what I call our U.S. information agency and we really have 
not got it up to where it stands now.
    I think one thing that has been missing here in terms of 
Iran's internal conflict, remember, they had a democracy. We 
overthrew it. We allowed the shah to begin developing nuclear 
weapons. So when we say you cannot do it they say, ``Well, wait 
a second. You did not mind when the shah had it.''
    Basically, after they helped us in Afghanistan, okay, and 
got the Northern Alliance, which is their allies, to support 
the Karzai government, President Bush put him on the Axis of 
Evil. You know, they said, ``Well, what do you expect from 
us?'' Therefore, they went back to some of their, you know, 
aggressive behavior.
    Mr. Gerecht. Yes, I am going to let pass Larry's odd 
rendition of history and go to the discussion of internal 
events. I just say this. I mean, when President Obama came into 
office--and he had a very aggressive policy of engagement, he 
was writing letters to Khomeini--that did have a profound 
effect, I think. It spooked the hell out of Khomeini.
    It did the opposite of what the President thought would 
happen. He sends that letter, and Khomeini gives a speech 
later, very shortly thereafter, and he refers to the United 
States as Sheik Tanti Mujasem, Satan incarnate.
    President Obama actually fed his fear of the United States, 
of the Western cultural invasion. When the pro-democracy 
dissidents in the Green Movement started shouting in Persian, 
``Ooh-ba-ma,'' which is a shortened version of ``he is with 
us,'' that had a catalytic effect, actually, I think, on 
demonstrations. Because the people in the streets actually 
thought that Obama was standing with them with the pro-
democracy movement.
    Now the President actually was not. He was actually trying 
to have a dialogue directly with Khomeini and his focus was on 
them, not on what was to come later with the Green Movement. 
But the United States can have an internal effect. I would 
suggest, and argue, that that incident should tell you that if 
the United States actually does talk about democracy in Iran, 
if it actually uses its bully pulpit to challenge the regime, 
to challenge the regime on its internal oppression, it actually 
can encourage dissent, it can encourage change, and it 
reinforces the people inside psychologically.
    When we do not do that, I think we send signals to the 
regime that we do not really care. Some Iranian diplomats who 
defected have made it crystal clear to folks that, you know, 
when they would write their cables back home to Tehran the 
Americans and Europeans would come and see them. They talk only 
about one thing. They talk about the nuclear program.
    So what did those diplomats write back home? They do not 
care about anything else. That is a mistake.
    General Keane. The thing that I would add is, we know how 
to do this propaganda. We have got a history of having done it 
effectively. We did it somewhat effectively with Soviet Union 
propaganda. But it does take authorities, it takes resources, 
and perseverance to do it.
    Mr. Keating. May I suggest it is easier these days because 
of social networking to even be more effective.
    General Keane. Very much so. In my statement I said that we 
certainly should be targeting Iran with this kind of effort in 
terms of making an impact on those people. I think one of the 
low points of American history, when over a million people were 
in the streets of Tehran in 2009 in July, we had no moral 
response to that movement.
    This is one of the most repressive regimes that we have, 
and we did not respond and side with them, much as we have 
responded to the Polish movement, to the Ukrainian movement, 
and to others around the world when people get in to the 
streets fighting against a dictatorship.
    So yes, we can. There is much that we can do. It should be 
one of the other things in our kit bag.
    Mr. Keating. The final comment I have, and then I will have 
to relinquish my time, it is over.
    But let me just say this. That there are things we cannot 
talk about that are classified, obviously. But many of the 
things you have suggested that this Government should be doing, 
I would suggest that perhaps we are already doing those things 
but we just cannot talk about them.
    Thank you.
    Mr. McCaul. The Chairman now recognizes the gentleman from 
Florida, Mr. Bilirakis.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it. 
Thank you, gentlemen, for your testimony today. I have a couple 
of questions.
    This is with regard to the cartels, and this is for the 
general and also colonel. Does it stand to reason that the 
Iranians would not have approached the cartels, for the first 
time, with a task as delicate, important, and sensitive as 
assassinating an ambassador? Does it not suggest a level of 
trust indicative of a pre-existing relationship?
    Whoever would like to address that, the general or the 
colonel.
    Colonel Geraghty. After you, General.
    [Laughter.]
    General Keane. Well, I think the answer is obvious that, 
from my perspective of course it suggests to take on something 
as vital as conducting an attack inside the United States there 
has got to be a relationship there. There has got to be some 
trust in that relationship.
    Let me just say something. I want to associate my remarks 
with Reuel, and totally disagree with Dr. Korb that this is 
somehow an act of desperation. That a strategic decision is 
made to attack the United States because of a sense of 
frustration and they are involved in chaos. I totally dismiss 
that theory that they would come to the United States.
    They came to the United States to do this because they 
believe it is going to advantage them in their part of the 
world. They are trying to get the influence of the United 
States and the West out of their region. They fundamentally 
believe, and Reuel is totally right about this, that they would 
get away with it.
    When bin Laden took the two embassies down in Africa in 
1998, we lost 400 people dead. I think bin Laden makes the 
decision. What we did in terms of our response to that is, we 
threw some missiles up into their training base in Afghanistan. 
I think bin Laden concludes, ``I just killed 400 of them, and 
they won't even come for us. I think we can come for them 
because they are weak.''
    That is why they are here, because we are weak. That is 
what they believe. They are here because they believe we are 
weak and we are not going to respond.
    Mr. Bilirakis. Thank you.
    This question is for Mr. Gerecht: Is it true that some of 
the car bombs recently being used by the cartels in Mexico are 
technically very similar to the car bomb designs used in Iraq 
by Iran's terrorist proxies there? Does this indicate possible 
collusion or training between the cartels and the terror 
groups?
    Mr. Gerecht. Oh, I am not a wiring expert. I doubt it. I 
mean, I think the knowledge of bombs sort of gets around. I 
mean, proliferation not only occurs with high technology, it 
also occurs with low technology. So, I am not sure that you 
need to see links in car bombs to suggest that you got active 
engagement.
    You might. I am not denying it. I am just saying that this 
type of knowledge is fairly ubiquitous, and it spreads easily.
    Mr. Bilirakis. Anyone else want to comment on that?
    Dr. Levitt. I will just add generally that we should be 
wary of jumping too quickly to the conclusion that in order for 
there to have been this type of cooperation it has to be 
institutionalized with lots of trust. DEA has found, many 
times, that what you have are the same types of facilitators, a 
gray area of people who work in the illicit industries, and for 
money they will work with all types.
    That is clearly happening in Mexico, where the same people 
who will move things will move guns or money or people. 
Sometimes it is just an opportunity. If, in fact, Arbabsiar, as 
is reported, had all kinds of business in Mexico, maybe some 
illicit business--apparently had a contact with this individual 
who we thought was a member of the drug cartel, it turns out to 
have been a source of ours--it may just have been that.
    That a relative in the Qods Force sees an opportunity to 
leverage a relative who is living here, who has connections 
south of the border and might be able to do this just for 
money. Sometimes it really is just that simple. It is still 
telling, because there are these opportunities to leverage 
those types of relationships. But it does not necessarily mean 
that these are institutionalized.
    We are just going to have to wait to see how the 
investigation pans out, and as information is made public, to 
really draw firm conclusions.
    Mr. Bilirakis. Thank you.
    I yield back my time. Thank you.
    Mr. McCaul. Thank you.
    The Chairman now recognizes the Ranking Member, Mr. 
Thompson.
    Mr. Thompson. Thank you very much, Mr. Chairman. Let me say 
from the beginning that while there might have been some acts 
perpetrated before the last 3 years of this administration, it 
might have been characterized, from a response standpoint, as 
weak.
    I am very comfortable that under the Obama administration 
we have taken some very, very bad people out. There is no 
question about it, the record is clear. So this notion that 
somehow as a country we are weak, from my standpoint, I want to 
make sure that there is some who disagree with that.
    But that being said, given the situation we face now with 
the drawdown in Iraq and the situation with Iran, I want to ask 
unanimous consent, Mr. Chairman, to enter into the record an 
article about U.S. Ambassador Susan Rice.
    [The information follows:]
         Article Submitted by Ranking Member Bennie G. Thompson
     diplomacy, not military force, should be our track with iran, 
   conservatives beat the war drum harder after assassination attempt
By Matthew Duss--October 20, 2011.
    Questions remain about the Iranian government's alleged plot to 
assassinate the Saudi ambassador to the United States in Washington, 
DC. Still, it clearly augurs even greater tension between Iran and the 
United States in the immediate future. But while the plot as described 
might create the illusion of an emboldened Iran, the reality is that 
Iran is much weaker and more isolated now than when President Barack 
Obama took office.
    First, the administration's successful efforts to constrain Iran's 
nuclear development are undeniable. According to an article in 
Tuesday's Washington Post, ``Iran's nuclear program, which stumbled 
badly after a reported cyber attack last year, appears beset by poorly 
performing equipment, shortages of parts and other woes as global 
sanctions exert a mounting toll.''
    This echoes the findings of a special panel of U.N. experts, which 
reported in May that the multilateral sanctions adopted under June 
2010's U.N. Security Council Resolution 1929--sanctions that the Obama 
administration worked hard to pass--were having a significant impact on 
Iran's ability to proceed with its nuclear program.
    According to the report, those measures were ``constraining Iran's 
procurement of items related to prohibited nuclear and ballistic 
missile activity and thus slowing development of these programs.''
    This isn't all, however. Last month, Reuters reported that China, 
one of Iran's most important backers, ``has put the brakes on oil and 
gas investments in Iran, drawing ire from Tehran over a pullback that 
officials and executives said reflected Beijing's efforts to appease 
Washington and avoid U.S. sanctions on its big energy firms.''
    Israeli Iran analyst Meir Javedanfar wrote, ``The Chinese 
government has made it much more difficult and expensive for Iran to 
extract and export its oil and gas, meaning less of such commodities to 
sell at a higher production cost in the future.'' This ``should be 
particularly worrisome for Iran's leaders.''
    In addition to the costs to Iran's economy and the significantly 
greater constraints on Iran's nuclear program, the Obama 
administration's diplomacy also resulted in increased international 
pressure over Iran's human rights abuses, including the creation of a 
United Nations Special Rapporteur on Human Rights in Iran. The Iranian 
regime itself certainly doesn't regard these measures lightly as 
demonstrated both by their public statements and by their intensive 
U.N. lobbying efforts to defeat these efforts.
    It's worth remembering that Iran was on a roll when President Obama 
took office. This was thanks to precisely the sort of military 
solutions that many of the President's conservative critics are now 
calling for again.
    Iran was the biggest strategic beneficiary of the Iraq war. It 
capitalized effectively on the removal of its greatest enemy, Saddam 
Hussein, and it successfully exploited the massive anti-American 
sentiment that resulted in the Middle East from the U.S. invasion and 
occupation of Iraq.
    Iran looks far worse 2\1/2\ years later. The Arab awakening 
sidelined Iran's efforts to sell itself as the standard bearer of 
resistance against the West. Its key ally Syria is on the edge of 
collapse.
    Iran itself is also in a state of significant internal turmoil. 
President Obama's efforts to reach out to the Iranian people damaged 
the Iranian leadership's ability to rally the country around the United 
States as an enemy, and it exposed the regime to popular protest and 
regime in-fighting.
    But though the United States today faces a weaker Iran, the 
revelation last week predictably resulted in the usual calls for war 
against Iran-from the same people who brought us the war in Iraq.
    Writing in the Weekly Standard, Bill Kristol--who has been calling 
for war with Iran since 2006--wrote, ``It's long since been time for 
the United States to speak to this regime in the language it 
understands--force. And now we have an engraved invitation to do so.''
    Reuel Marc Gerecht, another long-time fan of bombing Iran, wrote in 
The Wall Street Journal, ``The White House needs to respond militarily 
to this outrage. If we don't, we are asking for it.''
    The neoconservative Foreign Policy Initiative's Jamie Fly also 
wrote in National Review that ``Developments this week make abundantly 
clear, our disgraceful attempts to `engage' the despotic regime in 
Tehran . . . have failed.''
    Fly concluded, ``It is time to take military action against the 
Iranian government elements that support terrorism and its nuclear 
program. More diplomacy is not an adequate response.''
    Such calls for a military option may be emotionally satisfying to 
their authors and attractive as a quick fix to a complex problem. But 
they dramatically fail to understand the way the Obama administration 
successfully used diplomacy to isolate the Iranian government and 
undercut its influence.
    This inability to understand American power in terms other than 
military strength is a key reason why conservative foreign policy is in 
such a shambles these days.
    After surveying the foreign policy positions of the current 
Republican primary candidates, the Philadelphia Inquirer's Trudy Rubin 
remarked, ``We're left with a GOP pack that insists on American 
superiority and saber-rattling while our country is crumbling 
internally. From such self-delusion, the next American century won't 
grow.''
    The impressively clumsy assassination plot--if in fact it did 
originate inside the Iranian regime--should be seen as a sign of just 
how much weaker and desperate Iran is today than it was in 2008. The 
Obama administration put Iran on its back foot, diminished its regional 
importance, and severely curtailed its options through the skillful and 
effective use of American diplomacy and leadership--not through saber 
rattling.
    In conclusion, the revelation of the Iranian assassination plot 
should bolster the international consensus against Iran's behavior 
rather than serve as an excuse for another needless war. And it should 
strengthen the U.S. effort to constrain and change that behavior 
through a variety of methods. Given that the American people clearly 
have no interest in undertaking yet another costly and 
counterproductive military adventure in the Middle East, the 
administration would be wise to ignore the calls for one.

    Mr. McCaul. Without objection, so ordered.
    Mr. Thompson. Going forward, Dr. Korb. Can you give some of 
us on the committee how you think diplomacy, from the U.S. 
standpoint going forward, would be important? Some have talked 
about expelling any Iranian official from this country and 
going to other levels.
    But I would like you--and I will ask a couple of the other 
gentlemen also--where does diplomacy fit in this situation 
where we are today?
    Dr. Korb. Well, as I mentioned in my testimony, I support 
what Admiral Mullen, who recently stepped down as chairman of 
the joint chiefs of staff, says, you know, ``We are not talking 
to Iran so we don't understand each other.'' I think you ought 
to keep the contacts open to the extent that you can.
    I agree with the President basically--reaching out to them, 
wanting to negotiate--that it demonstrates to people in Iran 
that we are not the enemy and are completely against them. 
General Keane mentioned, you know, if you go back and take a 
look, Iraq attacked Iran. We, and I was in Government then, 
supported Iraq by given them photos that they used to drop 
chemical weapons on Iran.
    So when you say, well, they are terrible people, there are 
things that we have done that I think by reaching out and 
talking to them and using diplomatic channels, be willing to 
negotiate, I think will undermine that narrative of some people 
in Iran that we are just out to harm them and we do not agree 
with their role in the world.
    So, I am all for, you know, keeping contacts open and 
talking to them to the extent that we can. As Admiral Mullen 
mentioned, the darkest days of the Cold War were not just--you 
know, some U.S. interests were involved, but U.S. existence was 
involved. We kept channels open with the Soviet Union.
    Mr. Thompson. General Keane, given your 37 years of 
military experience, what role do you see the military having 
with respect to Iran, where we are today? Dr. Korb talked about 
diplomacy, but I want to talk a little bit about the military.
    General Keane. Yes, certainly. Let me just respond to 
something you already said. When I used the term ``weak,'' I 
was using Iran's perception of us. I was not using my 
perception of our country, just to clarify that. I believe bin 
Laden, when he believed we were weak, he totally underestimated 
the United States of America and the character of our people. I 
think he found that out, obviously.
    The role the military plays right now with Iran primarily 
is planning. I mean, the United States military has been asked 
to put together a plan to conduct war with this country on a 
different basis. This is not unusual for us. You know, we have 
to do that sort of planning in the event we have strategic 
surprise and the unpredictable takes place.
    In this case, we plan for all-out war with them, to include 
a ground war. Or we deal with very limited action to deal with 
a violation--mining of the Straits of Hormuz, or to deal with a 
very limited action against their nuclear capability. So there 
is a whole scale of response that the United States military 
has planned, and those plans have been briefed all the way to 
this President of the United States. They are approved as 
plans.
    So that is what the United States military does. Then it 
goes out and educates and trains officers and leaders in the 
military on how to do this, and conducts exercises. I have been 
participating when I was a division commander and a corps 
commander in simulation exercises and conducting war in Iran 
maybe a dozen times.
    You would want us to do that. So that if this event happens 
that we do not want to happen, then we do it professionally and 
very capably with a minimum loss of life. So that is primarily 
the function the United States military is serving. Now, they 
have pushback against the Iranian proxies in Iraq. So we are 
directly involved in that activity, and still are to some 
degree today.
    But obviously that is going to be minimized dramatically, 
and we push it back against the proxies that they are using 
with the Taliban. They are providing the Taliban with 
ammunition and with resources, and obviously we are pushing 
back against those. But the primary mission is the one that I 
just stated.
    Mr. Thompson. Thank you.
    I yield back, Mr. Chairman.
    Mr. McCaul. Thank you.
    The Chairman now recognizes the gentlelady, Ms. Speier, for 
unanimous consent request.
    Ms. Speier. Mr. Chairman, thank you. I would like to ask 
unanimous consent that the gentlelady from Texas, Ms. Jackson 
Lee, be seated and allowed to ask questions.
    Mr. McCaul. Without objection, so ordered.
    The Chairman now recognizes Mr. Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. First off, I want to 
thank the general and the colonel for their service to the 
United States military. Specifically I want to thank the 
colonel for his role, so to speak, in Beirut in 1983.
    I would like to enter into the record a friend of mine from 
high school, from Morrisville, North Carolina, Lance Corporal 
Timothy ``Tim'' McNealy, who played football with my brother, 
who I knew personally, who died in the Marine Corps barracks 
there in 1983.
    It is not lost on a lot of us that have been following this 
situation that the Qods Force and the terrorist arm of Iran 
Hezbollah has been involved with the Mexican drug cartel for 
quite awhile. We have raised awareness, Mr. Chairman, a number 
of times about this over my short 10 months being in Congress.
    I want to encourage the Members of the committee that have 
not signed on to Resolution 429, which Mr. Higgins and I have 
sent a ``Dear Colleague'' letter around on. That resolution 
basically urges the administration to include the Western 
Hemisphere in the administration's 2012 National strategy for 
counterterrorism area of focus.
    Because we are aware of the tri-border region, we are aware 
of Venezuela, we are now aware of a stronger working 
relationship between Hezbollah and the Mexican drug cartel and 
Qods Force and the drug cartels. So I would urge you to co-
sponsor that and I appreciate the Members that have.
    I ask the colonel, knowing our porous Southern Border--the 
comments that you made in your testimony, knowing that there is 
a working relationship that has been revealed--what could we be 
doing differently as a sovereign nation, on our Southern 
Border, to keep any infiltration of personnel or weapons into 
this country? Colonel?
    Colonel Geraghty. I live in Arizona. It has gotten better, 
there is no question about it, through the efforts of a lot of 
dedicated people. But I have to look back, from a historical 
standpoint, on how these things develop and what we can do and 
what impact they have. They are all very hard to measure, 
particularly in real time. There is delayed reaction that 
usually is after an attack.
    I use, as a sample of that from personal history, the 
mission in Beirut, the blowing up of our embassy, the attacks 
on the two embassies in East Africa that the general had talked 
about earlier that essentially went by with no response. Al-
Qaeda never had the capability for the suicide, coordinated, 
attacks that Hezbollah pulled off during the Beirut mission 
that killed us.
    They did not have that expertise. Bin Laden took 
inspiration from the success of those attacks. Particularly, a 
part of that was our non-response. Until there was a meeting 
between him and Ahmad Muneer who was the point man for the 
Shi'a, who is part of Iranian intelligence, later as the point 
of attack for us in Beirut. They had a meeting in Sudan in 
1996.
    Al-Qaeda's first coordinated simultaneous suicide bombing, 
first mission, were the two U.S. embassies in East Africa. They 
expanded that same Beirut model for the four commercial airline 
hijackings--simultaneous, coordinated attacks--for us here on 
9/11. So I use that.
    With all the activity that is going on--what we know about 
and, more importantly, what we do not know about--is building 
operational bases in Venezuela, in Margarita Island, the 
contact. Remember, too, that Hezbollah has been operating drug 
trafficking in the tri-border regions for a long time.
    So that is what I am saying. When they talk about using 
drug cartels down there in Mexico and so on, it is not a cold 
call. They are familiar with this, and I am sure have very good 
contacts with the different ones. They are shopping, probably, 
and all this.
    So when they say this is sort of a bumbling attack that 
should not be taken seriously and all this, I think it is at 
our own risk if we ignore that. That is part of the problem 
with this. Our freedoms are our vulnerabilities, and they know 
how to play this every which way.
    I could not agree more that when you have a link to an 
assassination in this country, in our Capitol, of the Saudi 
ambassador, the chutzpah that they have, and to try, and the 
Qods commander connection with that--and just walk that back, 
and the current minister of defense, and what is their 
background and so on--I would take this threat very seriously.
    Again, the whole threat, I think, ties into what we do not 
know as much as what we do know. I know that the FBI and the 
intelligence community, there is a lot of great work on one of 
the reasons that we have not been attacked here.
    But I will guarantee you that the Iranians and this current 
crowd that runs them, they are driven, they are obsessed. It is 
the ideology and so on. That we are on their schedule, I mean 
on their target list. Primarily. That when it does happen it 
will probably be as they have key targets and a spectacular--
coast-to-coast or whatever, even a Mumbai-style attack, just to 
carry it out. Because hate and humiliation go along with their 
obsession against the Western world, and the United States in 
particular.
    Mr. Duncan. Thank you, Mr. Chairman. I yield back.
    Mr. McCaul. Thank you.
    Colonel, I agree with you. I think the potential 
combination between Iran, Hezbollah, and the drug cartels is 
very powerful and very dangerous.
    With that, the Chairman now recognizes, let us see, Mr. 
Davis.
    Mr. Davis. Thank you very much, Mr. Chairman. I want to 
thank the witnesses for very enlightening discussion.
    Mr. Gerecht, let me ask if I understood you to imply, or 
suggest, that the governance of Iran is such that you do not 
necessarily get the same response that you might get from the 
use of sanctions with another country? That maybe there is a 
distance between the governing bodies and the people, to the 
extent that sanctions may not play the same role that they play 
in another country?
    Mr. Gerecht. Yes. I mean, I think that sanctions in Iran 
have been effective in many ways. But if you just take the 
Guards Corps, for example, the Guards Corps has gotten richer 
and more powerful as sanctions have gotten tougher. So for 
them, the last 5 years have been pretty good years.
    So I think you always have to try to see it the way they 
see it. The thing about the Guards Corps, actually, is they 
have lots of publications. They have their own world. It is 
actually not that hard to read the Guards Corp. I met a few 
Guardsmen. In addition to that, it is not hard to actually get 
a grasp of how they see the world because they are fairly 
forthright in telling you.
    Now there have been nuances and variations between 
individuals in the bottom of the Guards Corps and individuals 
at the top of the Guards Corps, family histories, et cetera. 
All these things come in into play. But I do not think, when 
Khomeini, the supreme leader, tells you that he is not scared 
of sanctions he is telling you the truth. He is not.
    Now, that is not to say that sanctions have not hurt them, 
and that the bureaucracy and the business community is not 
aware of the damage that they have done to Iran. But I think 
you have to be very, very careful in believing that sanctions 
that would make us stand up and take notice do the same to 
them.
    I would just make one other little quick comment. It is 
natural that the Iranians would gravitate to, and not be 
spooked by, any drug cartels. Because the Revolutionary Guards 
Corps is responsible for the movement of the vast majority of 
all opiates that come out of Afghanistan and go to Turkey. It 
is one of their major income-producers.
    So they would gravitate towards that. It is natural. It is 
not something that would be uncomfortable for them.
    Mr. Davis. Thank you very much.
    Recognizing that sanctions have been used as a diplomatic 
tool for a long time--I mean, it is kind of a normal reaction, 
oftentimes ultimately, where we get--Dr. Levitt, how do we make 
the assessment of how impactful the use of sanctions might be?
    I mean, how do we determine whether it is doing what we 
want it to do, or whether it is something that we are doing but 
the value is not there and we are not getting the kind of 
responses that we might be looking for?
    Dr. Levitt. The pithy but most honest answer is, with 
difficulty. But it comes down to, at its core, determining and 
admitting--and there is no one answer to this across 
Government, not this administration nor the prior 
administration--what is it you are trying to achieve with 
sanctions.
    Again, if you are trying to achieve disruption, sanctions 
have been tremendously effective. I know nobody who knows 
anything about them who disrupts that. There are ways that it 
can be done better. I think there are things that we should be 
doing more. But it has been tremendously successful there.
    Now do you also think or expect or hope, anywhere along 
that spectrum, that you will put enough sanction and economic 
misery on either the revolutionary regime or maybe even at some 
point the people--though the sanctions regimes we have now are 
mostly affecting those involved in illicit conduct, they are 
not the kind of shotgun regime-wide sanctions that we have in 
Iraq that affected people, as well--do you expect that some 
combination of sanctions like that would alter the calculus of 
this regime?
    Make it decide, for example, that perhaps a nuclear program 
is not a guarantor of its survival, but perhaps an inhibitor, 
something that might cost them their survival? I do not think 
that is the case. I agree with Reuel there. I do not think that 
we will be able to do that.
    But we can do enough sanctions that will be increasingly 
disruptive, buy us more time. Also do things, as I think a 
designation of the Central Bank would do, that would have more 
impact on the country. I have also argued in the House and the 
Senate, banking, finance, in and out of Government, that what 
we need to do now, I believe--and I think I am still a minority 
on this, but I believe sincerely--what we need to do is get a 
better mix, the cocktail of sanctions.
    For multilateral engagement purposes and other reasons, we 
have focused on sanctions that are graduated, targeted on those 
most involved in the illicit conduct. We can target--three 
times, three more times, a dozen times. It is only going to be 
so effective.
    I think we need to fold into the mix some sanctions that 
will have some impact on people in the ground, as well. That 
sends a message through domestic Iranian channels to the 
regime, and that is a different way of threatening their level 
of comfort. Ultimately this is a tool, not a policy. It is a 
tool which, if used in tandem with other tools, can be 
effective.
    But my problem is--and I used to complain about this all 
the time when I was in Government--that often not because it is 
the right tool, but because we have no better answers in 
difficult problems, we want to use this tool so we can say we 
have done something.
    That is the worst time to use the tool. When I was a 
Treasury official I would argue vehemently against using 
Treasury authorities just because there is nothing else to do. 
It can undermine those authorities. I think there are ways that 
we can target the RGC better. I think we should be pursuing 
Central Bank of Iran. I would hope that this will be done 
multilaterally because of the potential impact on the 
international economy, which is fragile at the moment.
    That is not something that I would necessarily say we 
should do unilaterally, though, because it would have an 
international impact because of the way banks world-wide react 
to reputational risk issues. But on the flipside, much more 
aggressive designations over a period of time targeting all 
kinds of Qods Force entities. Exposing them, even if it is not 
seizing assets, is the type of thing we can certainly be doing 
unilaterally with zero cost.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman for your indulgence.
    Mr. McCaul. Thank you, Mr. Davis.
    The Chairman now recognizes, in the order of appearance 
before the gavel, Ms. Hahn.
    Ms. Hahn. This has been really a fascinating hearing this 
morning, and I thank the witnesses for being here. Certainly we 
have a wide range of experience and we certainly have a wide 
range of opinions on what we need to do, when we need to do it, 
and how we need to carry it out.
    Certainly, you know, I believe that the comments about 
Iran's hate and obsession for us is really what drives their 
actions against us, I think, even more than the fact that they 
might perceive us as being weak. I was interested, a couple of 
hours ago, in General Keane's testimony and Mr. Gerecht's 
testimony.
    General Keane, you certainly believe that, so far, it 
sounds like the sanctions which we have been using have been 
not as effective as they could be. You used the term we ought 
to, you know, be grabbing them by their throats and really 
ramping up the sanctions--everything from seizing their assets 
to denying them entry to ports around the world.
    Mr. Gerecht feels that until we shoot somebody they are not 
going to pay attention.
    Sitting here 2 hours later, is that still your view, 
General Keane, that the ramped-up version of the sanctions is 
really where we ought to be going now? Or do you feel like the 
only way to get their attention is to use military action and 
actually shoot someone?
    General Keane. Yes. I do think the fact that they made this 
decision to come inside the United States and conduct this 
attack is something that we should not walk away from. We 
should not treat it like other terrorist arracks in the region, 
even though many of those were against us, as well.
    I am suggesting that they have been killing us for 30 
years, and we all know that. Until we get more effective with 
the response, they will continue to kill us and they will 
continue to work against our interests in the region. Remember, 
their objective is to drive us out of the region. That is 
clearly what they want.
    So to date, on the merits of it, we have not been effective 
in stopping them from, No. 1, killing us; No. 2, sponsoring 
terrorism; and No. 3, a continued program to develop nuclear 
weapons, which I am convinced they have not given up on.
    So I want a re-look at the whole issue. No. 1, admit to us 
that they are our strategic enemy. Use all the elements of 
National power, hold the military element in check and, as I 
said, figuratively get our hands around their throat using all 
those elements of National power. Do it comprehensively and as 
much near-simultaneous as we possibly can.
    I agree with Reuel that yes, we should target them. I mean, 
my God, we have got other terrorist organizations and the 
leaders of them who have killed us, and we have targeted them 
and we have killed them. Why do these guys get a pass? They 
should not get one. They should feel that kind of pressure.
    I am not suggesting that we bring in military forces and 
conduct operations inside Iran. I am not suggesting that at 
all. I am suggesting that we conduct covert operations. I am 
suggesting we conduct espionage that is covert, as well. They 
have to feel some of this pressure. If we do not recognize 
that, I am convinced it is just going to continue.
    Ms. Hahn. Thank you. Anyone else want to answer that? You 
are backing down on shooting someone?
    You know, obviously, being low on the totem pole here, most 
of my questions have already been asked and answered. But one 
of the things that maybe just I will ask the entire panel, none 
of you really mentioned it or suggested it. But, you know, over 
the years I think a lot of these attempts have been thwarted 
thanks in large part to our law enforcement officials on the 
ground.
    Of course, Congress is in the middle of some tough debates 
on our budget. Our super committee is looking at cuts to our 
defense. Many of our homeland security grants are looking to be 
pared down, and some eliminated altogether. I know I have been 
pushing for our port security grants to continue for another 
year because I still feel like our ports are a vulnerable 
entryway into this country.
    I would like to hear some thoughts on, you know, the 
importance of continuing to fund programs that directly help to 
secure our local law enforcement efforts on the ground as a way 
to continue to attempt to thwart what we may not be able to 
stop another way.
    Dr. Korb. I think the way that you need to do this is to 
look at National security in a holistic way. Whatever you 
decide to spend on the Department of Defense, Homeland 
Security, State and all of these things, recognize they all 
contribute.
    Now you mentioned the fact that you are concerned about 
port security. Well, do you realize we spend more on one 
program in the Department of Defense, missile defense, than we 
do on the entire Coast Guard? If you looked at it in a holistic 
way you could say where is it likely that somebody is going to 
shoot a nuclear weapon at us with a return address or try and 
smuggle it in. I would say the latter.
    So I would give more priority to that. But the reason you 
cannot is because you have a stovepipe when we do the budgets 
in the Executive branch and you do it over here. So what I 
would urge you to the extent that whatever number you decide 
you are going to have to, you know, reduce to deal with the 
deficit you look at it in a holistic way.
    For years we have been putting out a program called unified 
National security budget that assesses some of those trade-
offs. We take the amount the administration--Bush, and then 
Obama--has, and we took a look at how you could get, if you 
will, more bang for the buck.
    Ms. Hahn. Any other comments?
    Dr. Levitt. Well, as the former FBI guy here I should 
probably say that I completely concur this is an amazing 
example of what we can do. I mentioned earlier a DHS program on 
customs enforcements--it is not only here, but it is abroad--
people, DHS people, in Brussels for example, doing tremendous 
work.
    Sometimes I am concerned that we minimize the importance 
and the role of law enforcement. It gets politicized sometimes. 
These are not either/or sanctions, are not an either/or. The 
military is not an either/or. It is getting the cocktail right, 
it is getting the mix right.
    I think this case just demonstrates that what we are doing 
at home--and to be perfectly blunt, what we were doing abroad--
this plot was not thwarted at home. This was thwarted abroad, 
in Mexico, because DEA was doing what it does exceptionally 
well every day.
    We need to be able to maintain that vigilance. I think that 
that is clear. That money needs to be cut is also clear. So I 
am glad it is you, not me.
    Ms. Hahn. Thank you.
    I yield my time.
    Mr. McCaul. Thank you. I agree, Dr. Levitt. As I indicated 
earlier, meeting with these agents who pulled this thing off 
and the intelligence community they just did a magnificent job.
    With that, the Chairman recognizes Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    In Iranian political and terror ethos, there is the near 
enemy, Israel. But there is also the far enemy, the United 
States of America. The topic of this hearing is Iranian terror 
operations on the American soil. So I commend my colleague, 
Jeff Duncan, for his bipartisan resolution to include as an 
area of focus the Western Hemisphere in our Nation's 
counterterrorism efforts. I think it is very, very important.
    Hezbollah, the Party of God, is a Shi'a terrorist group 
highly committed to violent jihad. Hezbollah acts as a proxy, 
as a pawn, as a tool for Venezuela, Syria, and Iran. Hezbollah 
has a presence estimated to be between a few hundred to a few 
thousand in the 16-country region of Latin America. Hezbollah 
also has a presence in 15 American cities, including four major 
cities in Canada.
    We were told at previous hearings that while the 
confirmation of Hezbollah's presence in North America is 
indisputable, that we should not worry. That they are just here 
for fundraising activities. Hezbollah, a terror group committed 
to violent jihad. I do not make the distinction between 
fundraising and terrorist activity. Fundraising for terrorist 
activity is a terrorist activity.
    I represent Buffalo, New York, and I know from terrorist 
history terrorist cowards look for high-impact targets. We have 
the Peace Bridge that connects Buffalo and Southern Ontario--
the busiest Northern Border crossing for passenger vehicles in 
North America, third-busiest for commercial vehicles. We have 
Niagara Falls, a destination of millions of people every single 
year.
    We have 90 miles away, Toronto, a multicultural, 
fascinating international city. We also have, in close 
proximity, the Niagara Power Project, which produces the 
cheapest, cleanest, and most electricity in all of New York 
State.
    I would like you to comment, consistent with the hearing's 
topic, ``Iranian Terror Operations on the American Soil''--be 
it Iran directly, or their proxies who do their dirty work for 
them: What more can we be doing about their presence, their 
direct presence, in 15 American cities and four major Canadian 
cities generally in North America?
    Dr. Levitt. Well I, in particular, am grateful for the 
question because I am completing a book on Hezbollah's global 
presence which has several chapters on Hezbollah in South 
America and North America. So I know at least one person will 
now read it.
    [Laughter.]
    Dr. Levitt. I am going to take that giggle as a--now you 
got to buy it too. It is more than 15 cities in the United 
States and more than four in Canada.
    Several years ago, in written answers to follow-up 
questions in Congressional testimony, FBI officials conceded 
that they see Hezbollah doing more than fundraising in this 
country. They see Hezbollah doing pre-operational surveillance 
in this country. They believe that that is primarily done for 
the purpose of vetting new recruits.
    But if I were a terrorist mastermind vetting a new recruit 
here whose primary responsibility would be fundraising and 
logistics, there would be other ways to make sure that this 
person was a capable fundraiser other than having them surveil 
U.S. Federal buildings.
    I think one of the greatest surprises about this Arbabsiar 
plot is that the Qods Force was doing this apparently on their 
own, whereas usually they are doing things together with 
Lebanese Hezbollah. That certainly has been the M.O. in the 
Western Hemisphere, in Argentina. It was the M.O. earlier in 
1994, a few months before the AMIA bombing in Thailand in an 
attempted bombing of the Israeli embassy there that was 
thwarted, not because of anything counterterrorism officials 
did, but because the bomber got into a car accident, and in 
many, many other cases.
    That may suggest that their current capabilities here are 
not so high. Again, as I noted in my testimony, Qods Force and 
Hezbollah both have faced a series of failures since 2008 when 
they tried to resurrect Hezbollah. That is, tried to resurrect 
what had been a nascent foreign terrorist operations capability 
in the wake of the assassination of Imad Mugniyah.
    But we do need to be concerned about this, and we do need 
to be concerned about the crossings not just to our self but to 
our north. In one case we know of, Kurani, a Hezbollah guy who 
had actual training who was smuggled across the border from 
Mexico, then had connections in Canada as well--Fauzi Ayu, who 
was arrested trying to carry out a bombing in Israel had 
Canadian citizenship and traveled on a false U.S. passport, 
married an American woman. An indictment was recently released 
for him, in the Dearborn area, which was his last known 
address.
    There is a lot of movement across the bridges, more in the 
Michigan area but, I am sure, in yours as well. This is 
something we need to be cognizant of. The good news is--and I 
say this not just because I came originally, when I came to 
this town, working for FBI, but based on the research I have 
done for the book--I have been tremendously impressed.
    I have gone out and met with field offices and local police 
and others--FBI, DEA, JTTS. The work that they are doing, 
focused in Hezbollah in particular, is impressive.
    Mr. Gerecht. I will just make a very quick comment. The 
Hezbollah is vastly more comfortable with the expatriate 
Lebanese Shi'a population than the Iranians are with their 
expatriate population.
    The interesting exception to that might be in Canada. 
Because in Canada you have what I would call the second 
generation of Iranian immigration. You have much more devout 
communities, communities which are much closer to the folks 
back home. They exist almost in ghettos in Canada, which is 
something you do not see almost anywhere else with the Iranian 
expatriate communities.
    So, the Iranians are naturally going there. That is why 
they sent someone like Sadech Larijani, one of the brothers of 
perhaps the most famous family in Iran, there to be, ``a 
cultural attache.'' The Hezbollah, and there is no way around 
it, has had a certain prestige amongst the Lebanese Shi'a 
community. Even with Lebanese Shi'a who, ideologically, are not 
in sympathy with the Hezbollah.
    It is a problem, and it is just a problem that you have to 
be aware of. That is why the Hezbollah is much more effective 
maneuvering overseas than Iranians are.
    Mr. Higgins. Thank you.
    Mr. McCaul. The Chairman now recognizes the gentlelady from 
Texas, Ms. Sheila Jackson Lee.
    Ms. Jackson Lee. Mr. Chairman, thank you to all of the 
Chairpersons and Ranking Members. Thank you for your courtesy 
but, more importantly, let me congratulate you for the topic of 
this hearing. I think if there is ever a time of unanimity on 
perspectives dealing with Iran it is certainly on the point 
that they never stop and that we have concerns that need to be 
addressed.
    So let me start with you, Dr. Korb, on a maybe far-
stretched inquiry. Since my time runs quickly, why did the Arab 
Spring miss Iran? Even though I think it was about a year ago 
they even might have proceeded, but they did not succeed.
    But I remember Iranian/Americans in great emotion when the 
people of Iran rose up, stood on mountains. We will never 
forget that insightful picture of a young woman bleeding. Dr. 
Korb?
    Dr. Korb. I think the reason it had not is very similar to 
what has happened in Syria, Bahrain. That, in fact, people use 
force or the threat of force to make sure it does not happen. 
Remember, in Egypt the Arab Spring succeeded because the 
military refused to continue to back the Mubarak government----
    Ms. Jackson Lee. Right.
    Dr. Korb. Of course in Libya, once the rebels got a 
stronghold, the international community was able to come in. 
You just do not have those circumstances. People like General 
Zinni, Admiral Mullen, the former head of Mossad, all said the 
last thing you want to do is, you know put military 
involvement.
    Ms. Jackson Lee. Why would they say that?
    Dr. Korb. Well, basically because it will be 
counterproductive. It would unify the country against, you 
know, the threat from outside. Also, basically, then they would 
step up, I think, the activities that have been described here 
in other parts of the region.
    But I cannot emphasize too much, in my own personal view 
time is on our side. They cannot keep on doing what they are 
doing. Whatever happens in Syria, they are no longer going to 
be able to use the Syrians the way that they used to.
    Ms. Jackson Lee. Well, let me put on the record before I 
ask Colonel--is it Geraghty? Am I almost----
    Colonel Geraghty. Geraghty.
    Ms. Jackson Lee. Geraghty. Thank you, sir, very much.
    Colonel Geraghty. Yes, ma'am.
    Ms. Jackson Lee. I have no friendship for the Iranian 
government. I do believe the people there--there is a body 
politic who want freedom. I am also concerned as, in reference 
to a war that I did oppose--and though I respect all of those 
who served ably in Iraq. Because I fear that we have left 
Malawki in the hands of the Iranian government. He seems to not 
have not the ability to be independent.
    But I would like to build on what Dr. Korb said. Do you 
agree that terrorism today is franchised to a certain extent, 
meaning individual actors are engaged in terrorism?
    Colonel Geraghty. Yes.
    Ms. Jackson Lee. Did you make a point that we were 
preparing for war against Iran? Was that your comment that I 
heard. That military makes plans?
    Colonel Geraghty. No. My comment was talking about the 
sanctions and so on, and the sanctions that we have had for 
what, 25 years against Iran. As sanctions are increased and so 
on, one of the major purposes for the sanctions are what is the 
response of the one you are sanctioning against, which is Iran.
    We have seen a steady pattern that continues of them 
expanding their terrorist activities. When we just step back--
not that the sanctions have not had some effect--they are very 
hard to have any kind of measurements of effectiveness. They 
have some and all this, but as Dr. Levitt said they are more a 
tool than a policy.
    But the point that I was getting with the sanctions is that 
you look back and what have they accomplished. Iran, throughout 
this whole period, has not only retained but expanded their 
terrorist activities as the No. 1 world-sponsored terrorism.
    Then the question is, right in the middle of that, when you 
look, they decided to go nuclear in open defiance against a 
united world against this, not only in the region but world-
wide. How they are fighting that in your face and continuing 
that. Yes, the current sanctions are disrupting that.
    But at some point in time, are these going to be effective 
enough in order to have Iran change the behavior? So that is 
constantly being looked at. It is not going to war with them. 
But the other thing in Iran is, I refer people to read the book 
by the Iranian--it is a pseudonym, Kahlili--called ``A Time to 
Betray'' that was a CIA agent inside the IRGC during this whole 
period for the CIA.
    It gives insights of the mindset and how brutal they are in 
suppressing any kind of protesting within Iran. You saw it 
bubble up at the 2009 election, re-election, of Ahmadinejad. 
But the focus was just so severe. The fellow that is doing that 
is the minister of interior that is suppressing all that. So 
that is why you do not hear a lot or any of the protest within 
Iran.
    Ms. Jackson Lee. Dr. Levitt, I wanted to ask you a 
question. But thank you, Colonel. I just want to follow up on 
this point.
    Following on the colonel, I think he clarified that as we 
accelerate in the frustration with Iran, obviously as it might 
be with any country, the military in the United States always 
are engaged in planning and preparation. It does not mean they 
are engaged in moving on a country. I think that is the 
interpretation.
    But I noticed in your testimony, you indicated that the 
Saudis had, at one point, asked that the head of the snake 
should be cut off. My question to you on this whole issue of 
terrorism as it circulates around this horrific and horrendous 
potential assassination that wrapped the United States and 
Iran--excuse me, Iran and Saudi--in the mix, we have the 
responsibility, I believe, that if we act in any way, one, it 
should be collaborative, one it should be based on facts.
    We should be very consistent with protecting the homeland. 
So do you have a response on how you generate those three 
points that is something short of saying that we are going to 
allegedly attack this sovereign nation that potentially has 
nuclear capacity?
    Dr. Levitt. Thank you for the question. I think that it is 
important, as you have heard basically everyone on the panel 
describe in one way or another, that this be an all elements of 
national power approach. It is not sanctions or something else, 
it is not law enforcement or something else, it is not covert 
action or something else.
    It is all of these things in tandem at the same time. I 
think that it is at the same time in tandem, in a concerted 
effort, over a relatively short period of time that would be 
what is new. We have done a lot of these things, then we pause 
and we wait. What we need, I think, in response to this is a 
clear message.
    The clear message need not be military action. It should be 
a lot of different types of action now, at the same time, that 
can send a clear message. Someone earlier asked something about 
creating or promoting or undermining fissures within the 
regime. As you were asking about the Arab Spring, this came to 
mind. One of the things that Treasury I know has tried to do is 
to try and target sanctions, when it is doing sanctions, in 
ways when it can that will promote fissures within the regime.
    That is one of the reasons that the administration came up 
with human rights executive orders. It is the Qods Force, 
again, and the besieged militia that are responsible for 
cracking down on peaceful protests. It is the Qods Force that 
is in large part responsible for the missile program. Of 
course, with responses to terrorism it is often the very same 
people.
    In that sense, the re-designation of Qassem Soleimani three 
times does send a message. We can be targeting these to have 
multiple end-purposes, not only in terms of trying to shut down 
the next Qods Force front that is trying to procure some 
material or prevent somebody from traveling, but also send 
messages to the Iranian people that we are promoting their 
efforts at peaceful protest. I think that is really important.
    If you do all these things in tandem you can send your 
message. We talked much earlier--much, much earlier--about 
messaging. You can promote security in the homeland. You can 
even disrupt their activities abroad. I think we need to be 
doing all these things.
    Mr. McCaul. Thank you, Dr. Levitt.
    The Chairman now recognizes Mr. Meehan for his closing 
comments.
    Mr. Meehan. I want to thank the panel for a remarkable 
presentation to us today, in addition to the response to the 
questions. We have heard everything from bumbling and disarray, 
but we also hear lethal and persistent. I think the one 
consistent thing we hear is that they are here and, as a 
result, we have to come together with some appropriate 
response.
    I want to thank you for taking the time to raise the red 
flags that we have discussed have not been seen or watched 
before. I certainly hope that that failure of imagination that 
was discussed at the end of the 9/11 report, clearly, your kind 
of study of this current moment allows us to anticipate. I hope 
that we are able to respond in an appropriate fashion.
    Thank you for the work that you do, what you have done and 
what you continue to do, to help us protect our country.
    Mr. McCaul. The Chairman now recognizes Ms. Speier for her 
closing comments.
    Ms. Speier. I would like to associate myself with the 
comments made by my Chairman. I also want to say thank you, 
again, for your presentations.
    I want to underscore the fact that many of you, in further 
questioning, recognized that immediate military action is not 
what we should be looking at. But it is very clear that 
anything we do look at needs to be multilateral, that our 
vigilance needs to be heightened, and that we need to do 
everything we can to nurture the Arab Spring that is 
percolating within Iran as well.
    So I thank you again for your testimony.
    Ms. Jackson Lee. Mr. Chairman, may I----
    Mr. McCaul. It is getting late.
    Ms. Jackson Lee. May I put a question on the record, 
please?
    Mr. McCaul. You can pose it on the record.
    Ms. Jackson Lee. At least pose the question to you?
    Mr. McCaul. Okay.
    Ms. Jackson Lee. This will be in the record? You might not 
answer it, and I appreciate that.
    But I think one of our difficulties for those of us who 
have engaged with the Iranian resistance that is here in the 
United States and in Europe is that we need to delineate and 
declare whether this group can move forward in a non-terrorist 
label.
    They may be, in fact, individuals that could encourage the 
democratic movement in Iran. They have been in limbo. They are 
here in the United States. They are viewed as good citizens. 
They are asking this Nation to address the question.
    This hearing asks about terrorist activities that generate 
from Iran. I hope that we can get an answer from Iranian-
Americans who are supporting the Iranian resistance once and 
for all, including a response to Cam Ashraf which I know you 
are familiar with.
    I yield back.
    Mr. McCaul. The gentlelady raises an excellent point.
    In closing, let me thank the witnesses for being here 
today. I think it was very compelling testimony. Particularly 
the fact that this assassination attempt in this country, in 
Washington, was sanctioned at the highest levels of the Iranian 
government. I think that sends a message to us. But we need to 
send a clear message to Iran, and we need to respond 
effectively to Iran. But we have failed to do that since 1979.
    I think the takeaways I get, all elements of National power 
we treat Iran as a strategic enemy. We need to seize their 
financial assets. We need an offensive cyber campaign against 
them. We need sanctions, for the first time, to enforce the 
sanctions against their Central Bank.
    We need more aggressive designations. We need the expulsion 
of Iranian and Hezbollah operatives in this country. We need a 
significant covert action against Iran. Finally, we need to 
support this resistance of movement within Iran, this youthful 
secular movement to finally overthrow the Ayatollah Khomeini.
    So with that, Mr. Meehan and I are going to submit a 
letter, a letter to the President, with the findings of this 
hearing. I would hope that our Ranking Members would also join 
us in that letter to the President. This had been a very, very 
productive hearing. Thank you for being here
    This hearing is now adjourned.
    [Whereupon, at 12:47 p.m., the subcommittees were 
adjourned.]

                                 <all>

</pre></body></html>
